NEW APPROACHES NEEDED IN
MANAGING FAA’S HAZARDOUS
   MATERIALS PROGRAM

   Federal Aviation Administration

    Report Number: SC-2005-015
   Date Issued: November 19, 2004
           U.S. Department of
                                                   Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: Report on New Approaches Needed in               Date:    November 19, 2004
           Managing FAA’s Hazardous Materials Program
           Federal Aviation Administration
           SC-2005-015
  From:    Alexis M. Stefani                                     Reply to
                                                                 Attn. of:   JA-60
           Principal Assistant Inspector General
            for Auditing and Evaluation

    To:    Federal Aviation Administrator
           Assistant Secretary for Transportation Policy

           This report presents the results of our review of the Federal Aviation
           Administration’s (FAA) Hazardous Materials (HAZMAT) Program.             Our
           objective was to assess whether FAA’s execution of its HAZMAT Program was
           adequate to ensure industry’s compliance with HAZMAT regulations. To do this,
           we focused our audit on FAA’s (1) administration of HAZMAT enforcement
           cases, (2) efforts to ensure that HAZMAT regulations address the unique
           environment for shipments of HAZMAT by air, and (3) efforts to prevent
           unauthorized HAZMAT from being carried on board passenger aircraft.

           A draft of this report was provided to FAA and the Department of
           Transportation’s Assistant Secretary for Transportation Policy on August 20,
           2004. In their comments, FAA and the Assistant Secretary agreed with our
           recommendations and stated that work is underway to address all outstanding
           issues identified in the draft report. For five of the six recommendations addressed
           to FAA, the planned actions are responsive to the recommendations.

           For the one recommendation addressed to the Department’s Office of Safety,
           Energy and Environment, the Assistant Secretary for Transportation Policy agreed
           with our recommendation and stated that a process is being developed for
           resolving regulatory disagreements between FAA and the Research and Special
           Program Administration (RSPA) and for any future disagreements between
           Operating Administrations. Also, RSPA’s Deputy Administrator believes that
           RSPA and FAA are making progress towards building a more cooperative and
                                                                                2


collaborative relationship and that regulatory differences are being resolved more
effectively and expeditiously.

FAA comments were not fully responsive for one recommendation, and we are
requesting additional information.        We recommended that FAA institute
guidelines and timeframes for conducting HAZMAT investigations, conducting
legal reviews, and issuing Notices of Proposed Civil Penalties through the
coordinated efforts of the Hazardous Materials Division and Office of the Chief
Counsel. In its response, FAA stated that by December 31, 2004 it would
implement new timeframe goals for (1) completing HAZMAT violation
investigations, and (2) initiating and completing HAZMAT enforcement cases, but
FAA stated that it did not believe that guidelines were necessary.

We are requesting that FAA reconsider its position. Existing enforcement policy
does not include specific guidelines for when HAZMAT inspectors and attorneys
should coordinate during investigations and legal reviews or when issuing
penalties. During our review of the HAZMAT enforcement process involving
civil penalties, we found that inspectors and attorneys conducted their work
independently, without coordination. A clear policy statement and guidance on
coordination between inspectors and attorneys at the start of an investigation can
save both parties time in developing and processing a case where civil penalties
will be recommended.

In the final report, we added a recommendation that FAA develop a covert testing
program to evaluate air carriers’ compliance with HAZMAT regulations. FAA’s
procedures for conducting on-site assessments of air carrier compliance with
HAZMAT regulations were generally effective. However, in our opinion, a covert
testing program is needed to measure the air carriers’ level of compliance with
acceptance procedures for HAZMAT shipments by air, separate from the
inspectors’ on-site assessments and done surreptitiously. Such testing goes
beyond checking if documentation and training are adequate to verifying that in
practice proper acceptance procedures are being followed. Preferably, a joint
program would be established in which FAA works with the Department of
Homeland Security’s Transportation Security Administration so that HAZMAT
safety and cargo security testing could be conducted concurrently.

In accordance with Department of Transportation Order 8000.1C, we request that
FAA clarify its response and provide specific corrective action dates for the
recommendation discussed above. We are also requesting that FAA identify a
course of action for conducting covert testing of air carrier compliance with
HAZMAT acceptance procedures. We would appreciate receiving your written
comments within 30 days. In instances where we are in agreement on the
corrective actions and target completion dates provided, the recommendations are
considered resolved subject to the follow-up provisions of Order 8000.1C.
                                                                                3


We appreciate the courtesies and cooperation of representatives from the Office of
Security and Hazardous Materials and the Office of the Chief Counsel during this
audit. If you have any questions concerning this report, please call me at
(202) 366-1992 or Robin K. Hunt, Deputy Assistant Inspector General for
Hazardous Materials, Security and Special Programs, at (415) 744-0420.

Attachment

                                        #

cc:   Deputy Administrator, Research and Special
        Programs Administration
      Martin Gertel, M-1
                                       Executive Summary
                            New Approaches Needed In Managing
                             FAA’s Hazardous Materials Program
                                  Federal Aviation Administration

  Report No. SC-2005-015                                                                      November 19, 2004

OBJECTIVE
  Our objective was to assess whether the Federal Aviation Administration’s (FAA)
  execution of its Hazardous Material (HAZMAT) Program was adequate to ensure
  industry’s compliance with HAZMAT regulations. To do this, we focused our
  audit on FAA’s (1) administration of HAZMAT enforcement cases, (2) efforts to
  ensure that HAZMAT regulations address the unique environment for shipments
  of HAZMAT by air, and (3) efforts to prevent unauthorized HAZMAT from being
  carried on board passenger aircraft.


BACKGROUND
  On May 11, 1996, ValuJet flight 592 crashed in the Florida Everglades, killing
  110 passengers and crew, as a result of an in-flight fire from improperly packaged
  hazardous materials (chemical oxygen generators) in the cargo area. This accident
  called into question the effectiveness of FAA’s oversight of HAZMAT shipments
  on commercial aircraft. At the time of the crash, FAA had about 13 regional
  inspectors to oversee industry’s (mostly air carriers’) compliance with HAZMAT
  requirements.

  To strengthen FAA’s oversight of HAZMAT shipments by air and enforcement of
  pertinent regulations, Congress included $10.5 million in FAA’s fiscal year 1997
  appropriations, enabling FAA to expand its HAZMAT work force by
  130 personnel (e.g., inspectors, support staff, attorneys). FAA used these funds to
  establish the Dangerous Goods/Cargo Security Program1 in what was then FAA’s
  Office of Civil Aviation Security Operations.

  Since that time, FAA’s oversight of HAZMAT has been in flux. Under the
  Dangerous Goods/Cargo Security Program, FAA inspectors had dual roles: (1) as
  safety inspectors assessing and enforcing industry’s compliance with HAZMAT

  1
      “Dangerous goods” is the international term for hazardous materials transported on aircraft.


  Executive Summary                                                                                           i
  regulations, and (2) as security inspectors assessing and enforcing industry’s
  compliance with cargo security requirements. Also, several high-priority aviation
  security initiatives, such as implementing the recommendations of the White
  House Commission on Aviation Safety and Security (following the crash of TWA
  Flight 800 in July 1996), required FAA at times to increase its oversight of
  aviation security, resulting in a corresponding decrease in oversight of HAZMAT
  shipments by air.

  Immediately following September 11, 2001, FAA’s Dangerous Goods/Cargo
  Security Program was suspended so its inspectors could concentrate on securing
  the Nation’s aviation system. In February 2002, the Dangerous Goods/Cargo
  Security Program was transferred to the Transportation Security Administration
  (TSA) but only for a few months. The Department of Transportation (DOT)
  decided that oversight of HAZMAT shipments would remain within each of its
  Operating Administrations with HAZMAT responsibilities (e.g., FAA, the Federal
  Railroad Administration, and the Federal Motor Carrier Administration), so the
  Dangerous Goods section of the Program was transferred back to FAA and
  renamed the Hazardous Materials Program in October 2002.2 The HAZMAT
  Program was joined with FAA’s Internal Security Program and now resides within
  FAA’s Office of the Assistant Administrator for Security and Hazardous
  Materials.


RESULTS IN BRIEF
  The importance of FAA’s oversight of industry’s compliance with HAZMAT
  regulations cannot be overstated. Each year, about 50,000 routine shippers of
  HAZMAT offer each day to 200 U.S. and 200 foreign air carriers HAZMAT
  packages for shipment by air. However, comprehensive statistics are not collected
  on the aggregate number of declared and authorized HAZMAT packages or
  tonnage shipped within the U.S. each day or each year. Adding to the uncertainty
  is the unknown number of undeclared, unauthorized HAZMAT shipments by air
  on any given day.

  Violations of HAZMAT regulations are prevalent, with more than
  11,000 enforcement cases investigated during the period 1999 to 2003 and more
  than $35 million collected in civil penalties for the same period. In an
  enforcement case investigated by our office with assistance from FAA, an
  all-cargo air carrier pled guilty to 12 felony counts of violating HAZMAT
  regulations and agreed to pay a criminal penalty of $6 million.


  2
      During this time, TSA was part of the Department of Transportation, and the Cargo Security section of the Program
      stayed with TSA. On March 1, 2003, TSA was transferred to the Department of Homeland Security.


  Executive Summary                                                                                                  ii
Ensuring the safe shipment of HAZMAT by air is inherently a safety matter.
However, improperly shipping HAZMAT by air through either negligent or illicit
behavior can have the same consequences as a terrorist attack, as demonstrated by
the ValuJet Flight 592 crash as a result of an in-flight fire from improperly
packaged hazardous materials. This helps underscore the challenge that FAA
faces in strengthening the safety of HAZMAT transported by air.

Since the transfer from TSA of the aviation HAZMAT Program in October 2002,
FAA has realigned its organizational structure and personnel distribution; hired
and trained new members of its workforce; developed and implemented guidance
and work plans for conducting inspections, including testing of air carriers’ and
shippers’ compliance with HAZMAT regulations; and created an automated
system for collecting and reporting the results of inspection and enforcement
activities.

In our opinion, FAA’s HAZMAT Program is a better run program today than the
program formerly known as the Dangerous Goods/Cargo Security Program in
what was then FAA’s Office of Civil Aviation Security Operations. Nevertheless,
the current situation is far from an “end state” for ensuring the safety of HAZMAT
shipments by air, and new approaches are needed in managing the HAZMAT
Program. Specifically, FAA needs to:

• Conduct covert tests to evaluate air carriers’ compliance with HAZMAT
  regulations. FAA has developed a HAZMAT safety assessment questionnaire
  used in evaluating air carriers’ and shippers’ compliance with HAZMAT
  regulations. FAA HAZMAT inspectors conduct on-site assessments at
  shippers’ and air carriers’ facilities that include, among other things, audit tests
  of HAZMAT shipping documents to ensure that the documents are complete
  and accurate and that only authorized HAZMAT items are being or were
  shipped by air.

   However, we found that HAZMAT inspectors were not conducting covert tests
   of air carriers’ HAZMAT acceptance procedures. FAA’s Office of the Chief
   Counsel has advised HAZMAT Program officials that it cannot conduct covert
   tests of air carriers’ and shippers’ hazardous materials acceptance procedures
   without an exemption to regulatory requirements contained in Title 49 Code of
   Federal Regulations. It is against regulations to place a hazardous materials
   label on something that does not contain hazardous material.

   In our opinion, a covert testing program is needed to measure the efficacy of
   the air carriers’ acceptance procedures for HAZMAT shipments by air,
   separate from the inspectors’ on-site assessments and done surreptitiously.
   Such testing would, for example, include covert test scenarios in which FAA
   “testers” would pose as unknown shippers and offer to the air carriers


Executive Summary                                                                  iii
   shipments that do not conform to HAZMAT regulations, such as packages that
   do not have the proper markings identifying the type of HAZMAT being
   shipped. However, test packages should not actually contain any HAZMAT to
   avoid the risk of a HAZMAT incident. A joint program with TSA could be
   established so that HAZMAT safety and cargo security testing could be
   conducted concurrently.

• Overcome the cumbersome, lengthy, and sometimes ineffectual legal
  process for administering HAZMAT enforcement cases.                    FAA’s
  cumbersome legal process for administering HAZMAT enforcement cases
  needs to be changed. Under the current process (1) enforcement actions are
  taking on average more than a year to complete; (2) final settlements are on
  average only 41 percent (41 cents on the dollar) of the penalty proposed by
  inspectors conducting the HAZMAT investigation; (3) 25 percent of the
  enforcement cases we reviewed in one region were not pursued because of
  FAA’s inability to meet its self-imposed 2-year rule for filing a Notice of
  Proposed Civil Penalty; and (4) enforcement caseloads are not distributed
  equitably, with an average of 166 in-process cases per attorney in one region
  compared to an average of 16 in-process cases per attorney in another.

   FAA needs to institute guidelines and timeframes for conducting HAZMAT
   investigations, conducting legal reviews, and issuing civil penalties. Also, to
   change the process for administering HAZMAT enforcement cases, FAA must
   develop acceptable alternate ways of doing business. One example of an
   alternate approach is a “ticket” system in which HAZMAT inspectors without
   attorney involvement would assess a civil penalty against a HAZMAT violator
   for what FAA considers less-serious offenses.

• Implement a system-wide approach for “putting on notice” those
  passengers who have violated HAZMAT regulations.              FAA has a
  Memorandum of Agreement (Agreement) with TSA addressing collaborative
  relationships, to include HAZMAT issues. However, some of the provisions in
  the Agreement have not been fully implemented to prevent passengers from
  offering unauthorized HAZMAT items in their checked and carry-on baggage.

   For example, in the Agreement, FAA and TSA agree to establish procedures
   for a referral process when TSA finds passengers with any prohibited
   HAZMAT items in their carry-on baggage. Such items could include
   fireworks, safety and road flares, tear gas, pepper spray, flammable gas
   torches, flammable aerosols, household bleach, and hydrogen peroxide.
   However, system-wide referral procedures have not been developed, and any
   referral procedures that do exist were developed at the local level.




Executive Summary                                                               iv
   The amount of HAZMAT discovered in carry-on and checked baggage from
   the 429 airports where TSA operates is voluminous. For example, during the
   last 6 weeks of 2003, TSA was responsible for the emergency removal of
   8,312 pounds of HAZMAT from 18 airports. Without a standardized, uniform
   referral approach, FAA has no way of “putting on notice” those passengers
   who have violated HAZMAT regulations or identifying those passengers who
   are repeatedly violating the regulations.

   FAA should work with TSA to revise the Agreement so it better defines the
   roles and responsibilities between the two Administrations for preventing
   unauthorized HAZMAT from being carried on board passenger aircraft. One
   step towards implementing system-wide referral procedures would be for FAA
   to initiate a pilot project with TSA and one or more air carriers to determine
   the effectiveness and cost of an automated operating system to record and
   process violations of HAZMAT regulations discovered during the screening of
   passengers’ carry-on and checked baggage.

• Resolve long-standing differences between FAA and the Research and
  Special Programs Administration on when HAZMAT is safe for shipment
  by air. The Research and Special Programs Administration (RSPA) is
  responsible for HAZMAT rulemaking for all modes of transportation. It is not
  uncommon for FAA and RSPA to disagree on how the HAZMAT rules should
  be worded, as the rules are often based on the requirements for shipments by
  surface transportation with adjustments sometimes, but not always, made for
  shipments by air.

   FAA has raised concerns to RSPA regarding longstanding air-specific package
   failures. For example, FAA has concerns that RSPA’s standards for testing
   and packaging lithium batteries are not sufficient for their safe shipment by air.
   Specific concerns include that the packaging is not sufficient to protect the
   lithium batteries from damage and short-circuiting or from self-ignition if
   exposed to the heat from a cargo fire.

   Several incidents have occurred involving the shipment of lithium batteries in
   air cargo. Most recently, on August 7, 2004, a shipment of lithium batteries
   was involved in a fire at the airport hub of a major all-cargo carrier. The
   carrier’s ramp personnel detected smoke coming out of a cargo container in the
   aft section of the aircraft. After the container had been removed from the
   aircraft and placed on the ramp, the container burst into flames. The fire was
   traced to a package containing lithium batteries.

   Discussions between FAA and RSPA on the lithium batteries issue and other
   issues on specific rules governing shipments of HAZMAT by air have been
   ongoing for 5 years without any effective resolution. The Department needs a


Executive Summary                                                                  v
   process for resolving disputes of this nature to ensure that the unique safety
   requirements for shipments of HAZMAT by air are being effectively
   addressed.


Conducting Covert Tests To Evaluate Air Carriers’ Compliance
With HAZMAT Regulations
FAA has developed a HAZMAT safety assessment questionnaire used in
evaluating air carriers’ and shippers’ compliance with HAZMAT regulations.
FAA HAZMAT inspectors conduct on-site assessments at shippers’ and air
carriers’ facilities that include, among other things, audit tests of HAZMAT
shipping documents to ensure that the documents are complete and accurate and
that only authorized HAZMAT items are being or were shipped by air. During the
assessments, HAZMAT inspectors can also observe the air carriers procedures for
HAZMAT acceptance, storage, handling, and loading on board aircraft.

However, we found that HAZMAT inspectors were not conducting covert tests of
air carriers’ HAZMAT acceptance procedures. FAA’s Office of the Chief
Counsel has advised HAZMAT Program officials that they cannot conduct covert
tests of air carriers’ and shippers’ hazardous materials acceptance procedures
without an exemption to regulatory requirements contained in Title 49 Code of
Federal Regulations. It is against regulations to place a hazardous materials label
on a package that does not contain hazardous material.

Also, TSA requires that air carriers accept cargo only from shippers in the Known
Shipper Program. In other words, TSA prohibits air carriers from accepting cargo
from unknown shippers. Under the Known Shipper Program, air carriers are
required to verify their shippers’ legitimacy.

In our opinion, a covert testing program is needed to measure the efficacy of the
air carriers’ acceptance procedures for HAZMAT shipments by air, separate from
the inspectors’ on-site assessments and done surreptitiously. Such testing would
for example, include covert test scenarios whereby FAA “testers” would pose as
an unknown shipper and offer to the air carriers’ shipments that do not conform to
HAZMAT regulations, such as packages that do not have the proper markings
identifying the type of HAZMAT being shipped. However, test packages should
not actually contain any HAZMAT to avoid the risk of a HAZMAT incident. A
joint program with TSA could be established so that HAZMAT safety and cargo
security testing could be conducted concurrently.




Executive Summary                                                                vi
Overcoming the Cumbersome, Lengthy, and Sometimes
Ineffectual Legal Process for Administering Enforcement Cases
FAA’s cumbersome legal process for administering HAZMAT enforcement cases
needs to be changed. Civil penalty enforcement cases are taking years to process,
proposed penalties are often greatly reduced at settlement, and some enforcement
cases are not pursued due to administrative time constraints. In many cases, the
settlement penalties had little, if any, deterrent value against the violators’
noncompliance with HAZMAT regulations because the penalties were often
assessed too long after the incident and in reduced amounts no longer
commensurate with the severity of the infraction.

In our review of FAA’s process for administering HAZMAT enforcement cases in
three FAA regions, we found that:

• The time required for completing a HAZMAT enforcement case, from date of
  incident to assessment of the penalty, ranged from an average of 348 days in
  the Southwest Region to 873 days in the Southern Region. Contributing to the
  untimeliness was that inspectors and attorneys conducted their work
  independently and with little, if any, coordination. We found that seldom did
  inspectors developing HAZMAT violation cases communicate with attorneys
  who would process the cases. As a matter of practice, inspectors did not
  contact attorneys during the course of their investigations.

• The final settlements were, on average, only 41 percent (41 cents on the dollar)
  of the penalty proposed by the FAA inspector conducting the investigation. In
  469 enforcement cases we reviewed for the period October 1, 1999, through
  August 7, 2003, the total amount of civil penalties proposed by the HAZMAT
  inspectors was $19,549,725, compared to civil penalty settlements gotten by
  the attorneys of $8,025,995.3

• Enforcement cases were not pursued because of the inability to meet FAA’s
  self-imposed 2-year rule for filing a Notice of Proposed Civil Penalty. Our
  analysis of 104 HAZMAT cases disclosed 26 cases (25 percent) that had not
  been processed within FAA’s time constraints or had not been reviewed by
  attorneys with sufficient time remaining to allow for proper processing of the
  cases within 2 years of the incident. All 26 cases, with initial proposed
  penalties totaling $910,750, were closed without the alleged violators paying a
  fine.



3
    FAA is required to conduct a statutorily mandated evaluation of the HAZMAT violator’s ability to pay. According
    to FAA, the violator’s ability to pay often resulted in a reduction of the recommended penalty.


Executive Summary                                                                                              vii
• The average number of enforcement cases in-process handled by each attorney
  was 16 in the Southwest Region, 110 in the Southern Region, and 166 in the
  Western-Pacific Region. This was due primarily to the changes in the number
  of inspectors and attorneys over the last 6 years. In the past 6 years, the ratio
  of inspectors to attorneys working HAZMAT cases has increased 41 percent.
  While an average case load of 16 cases per attorney is certainly manageable, an
  average case load of 110 or 166 cases can significantly contribute to some
  cases never being processed and a possible willingness to reduce penalties to
  get a quick settlement.

Alternative Approaches to Processing Enforcement Cases
To change the process for administering HAZMAT enforcement cases, FAA must
develop acceptable alternate ways of doing business. One example of an alternate
approach is a procedure used by RSPA. RSPA’s HAZMAT inspectors use a
streamlined “ticket” system for what RSPA considers less-serious offenses. Based
on their work during inspections, RSPA inspectors can propose assessing a civil
penalty against a HAZMAT violator.

Violations under the “ticket” process are written up by inspectors and then
reviewed, approved, and issued by the inspector’s supervisor, without attorney
involvement. Also, RSPA’s system offers the violator a discount on the fine if the
assessed penalty is paid within 45 days. Violators can contest the “ticket,” which
returns the case to RSPA’s standard violation procedure. This process greatly
reduces the time spent by attorneys on resolving minor offenses. FAA Office of
Hazardous Materials, in coordination with the Office of the Chief Counsel, needs
to consider such a process that would expedite the civil penalty process.

Another example in expediting the process for administering HAZMAT
enforcement cases and, at the same time, reducing the enforcement case workload
would be to implement a voluntary disclosure reporting program for reporting
unsafe practices.4 Currently, air carriers are required to report HAZMAT incidents
(e.g., spills and leaks) to FAA. FAA’s investigation of incidents may result in
civil penalties against the reporting air carrier for violations of HAZMAT
regulations. This process has resulted in sometimes strained relationships between
the air carriers and FAA.

By implementing a self-disclosure program, FAA will have the opportunity to
reduce its caseload of enforcement actions. A self-disclosure program would not
absolve air carriers from civil penalties for egregious practices, but FAA would be

4
    FAA’s Hazardous Materials Division has drafted a voluntary disclosure reporting program and received industry’s
    written comments on it in June 2004. The voluntary disclosure reporting program is currently being circulated
    within FAA for final coordination.


Executive Summary                                                                                             viii
able to (1) collect better data and study the systemic causes of HAZMAT
incidents, (2) foster investigative cooperation with air carriers, and (3) focus its
attention on those shippers with a pattern of not complying with HAZMAT
regulations.


Implement a System-Wide Approach for “Putting on Notice”
Passengers Who Violate HAZMAT Regulations
Inspecting HAZMAT shipments and enforcing HAZMAT regulations are
inherently safety matters. Prior to September 11, 2001, air carriers were
responsible for the screening of passengers and their checked and carry-on
baggage, including screening for explosive, incendiary, and deadly or dangerous
weapons. The screening of passengers and their checked and carry-on baggage
was conducted almost entirely by third-party screening companies under contract
with the air carriers. FAA was responsible for overseeing the air carriers’
compliance with checked and carry-on baggage screening requirements. While all
carry-on baggage was required to be screened, a very small percentage of
passengers’ checked baggage required screening.

After September 11th, the responsibility for screening passengers and their checked
and carry-on baggage transferred from the air carriers to TSA. FAA no longer has
jurisdiction for overseeing the screening of passengers and their checked and
carry-on baggage. Today, for FAA to effectively oversee the shipment of all
HAZMAT by air, FAA must work directly with TSA at the Nation’s airports.

FAA has an Agreement with TSA addressing collaborative relationships,
including HAZMAT issues. While the Agreement does not address all HAZMAT
scenarios, it does clarify basic responsibilities between the two Administrations
for screening passengers’ carry-on and checked baggage for prohibited items,
including HAZMAT.

However, some of the provisions in the Agreement have not been fully
implemented to prevent passengers from “offering for air transportation”
unauthorized HAZMAT items in their checked and carry-on baggage. For
example, FAA and TSA agree to establish procedures for a referral process when
TSA finds passengers with any prohibited HAZMAT items in their carry-on
baggage. Such items could include fireworks, safety and road flares, tear gas,
pepper spray, flammable gas torches, flammable aerosols, household bleach, and
hydrogen peroxide.

However, system-wide referral procedures have not been developed, and any
referral procedures that do exist were developed at the local level. For example,
our visit to Atlanta’s Hartsfield-Jackson International Airport found that TSA was


Executive Summary                                                                 ix
not keeping a record5 of violations of HAZMAT regulations when HAZMAT
items where found during the screening of passengers’ carry-on baggage at the
TSA passenger security screening checkpoints. TSA was also not notifying FAA
of these violations. Without a standardized, uniform referral approach, FAA has
no way of “putting on notice” those passengers who have violated HAZMAT
regulations or identifying those passengers who are repeatedly violating the
regulations.

For checked baggage, TSA and FAA agreed that when TSA discovered HAZMAT
during the security search of checked baggage, TSA would notify the air carrier
that tagged and accepted the baggage. In turn, air carriers are required by
HAZMAT regulations to notify FAA of the HAZMAT incident. However, our
observations with HAZMAT inspectors of TSA’s and air carriers’ procedures
disclosed that some air carriers were not aware that they were required to report
the HAZMAT incidents to FAA. For example, a major air carrier representative at
Las Vegas’ McCarran International Airport was signing for and accepting
HAZMAT items from TSA unaware of the requirement to report HAZMAT
incidents to FAA.

HAZMAT regulations also require that all incidents, no matter how small,
pertaining to the improper transport of HAZMAT via aircraft be investigated.
This includes the discovery of HAZMAT by TSA in passengers’ carry-on and
checked baggage. The amount of HAZMAT discovered in carry-on and checked
baggage from the 429 airports where TSA operates is voluminous. For example,
during the last 6 weeks of 2003, TSA was responsible for the emergency removal
of 8,312 pounds of HAZMAT from 18 airports. TSA hired a contractor to manage
the disposal of abandoned prohibited items (e.g., knives) and HAZMAT at airport
checkpoints. Processing the large volume of incidents without the development of
efficient and expedient means of investigating and processing the reported
incidents will hinder the effectiveness of FAA’s HAZMAT mission.

To further strengthen its oversight of unauthorized HAZMAT carried in
passengers’ carry-on and checked baggage, FAA developed an operating system
for use by TSA and the air carriers to record and process violations of HAZMAT
regulations discovered during security screening. The system would be used to
track recurring violations by type of violation and number of violations committed
by individual passengers, regardless of where the violations took place or which
air carrier was involved. The system has not been implemented because TSA
decided to develop its own system, and the air carriers are reluctant to use the
system due to passenger privacy concerns.


5
    Records should include information such as date of violation, passenger name, air carrier and flight number, and type
    of HAZMAT item abandoned by the passenger.


Executive Summary                                                                                                      x
FAA should work with TSA to revise the Agreement so it better defines the roles
and responsibilities between the two Administrations for preventing unauthorized
HAZMAT from being carried on board passenger aircraft. This cannot be
overstated, as the quantity of HAZMAT items found in passengers’ carry-on and
checked baggage has been vast since TSA began screening it.


Resolving Long-Standing Differences Between FAA and RSPA
On When HAZMAT Is Safe for Shipment by Air
FAA is responsible for overseeing and enforcing regulations pertaining to the
shipment of HAZMAT by air, but RSPA is responsible for rulemaking governing
the safety of HAZMAT for all modes of transportation. It is not uncommon for
FAA and RSPA to disagree on how the rules should be worded, as the rules are
often based on the requirements for shipments by surface transportation with
adjustments sometimes, but not always, made for shipments by air.

During the course of our audit, FAA identified the five significant areas of
hazardous materials safety that it deemed detrimental to the safe passage of
HAZMAT shipments by air and that needed to be immediately addressed through
the coordinated efforts of FAA and RSPA. The exhibit lists FAA’s air-specific
HAZMAT strategic plan priorities for fiscal year 2004 and RSPA’s corresponding
priorities.

For example, in 1999, FAA raised concerns about the shipment of bulk-packed,
nonrechargable lithium batteries after a pallet of lithium batteries caught fire while
being handled between flights at Los Angeles International Airport. In September
2000, RSPA issued a safety advisory and FAA issued a Dangerous Goods
Advisory Bulletin to air carriers concerning the shipment of lithium batteries by
air.

Since that time, several other incidents have occurred involving the shipment of
lithium batteries in air cargo. Most recently, on August 7, 2004, a shipment of
lithium batteries was involved in a fire at the airport hub of a major all-cargo
carrier. The carrier’s ramp personnel detected smoke coming out of a cargo
container in the aft section of the aircraft. After the container had been removed
from the aircraft and placed on the ramp, the container burst into flames. The fire
was traced to a package containing lithium batteries. The incident is currently
under investigation by the National Transportation Safety Board.

Discussions between FAA and RSPA on the lithium batteries issue and other
issues on specific rules governing shipments of HAZMAT by air have been
ongoing for 5 years without any effective resolution. Not until recently has there
been any serious effort to resolve the lithium batteries issue and only as a direct


Executive Summary                                                                   xi
  result of (1) the August 7th incident; (2) FAA’s technical report (issued June 2004)
  concluding that lithium batteries pose a unique threat in the cargo compartment of
  an aircraft because lithium fires cannot be extinguished by Halon 1301, the only
  FAA-certified fire suppressant system that is permitted for use in cargo
  compartments of passenger-carrying aircraft; and (3) the attention at the highest
  levels in the Department’s management, including the Secretary and Deputy
  Secretary. The Department is in the process of issuing an interim final rule on the
  shipment of lithium batteries by air. However, the Department needs a process for
  resolving disputes of this nature to ensure that the unique safety requirements for
  shipments of HAZMAT by air are being effectively addressed.


RECOMMENDATIONS
  To enhance FAA’s Hazardous Materials Program, we recommend that FAA:

  1. Institute guidelines and timeframes for conducting HAZMAT investigations,
     conducting legal reviews, and issuing Notices of Proposed Civil Penalties
     through the coordinated efforts of the Hazardous Materials Division and Office
     of the Chief Counsel.

  2. Implement a nationwide plan to distribute equitably the number of HAZMAT
     enforcement cases per attorney.

  3. Develop and implement alternate means of administering HAZMAT
     enforcement cases, such as the ticketing system used by RSPA.

  4. Finalize and implement the FAA voluntary disclosure reporting program.
     FAA needs to take a systematic approach in effectively managing the program,
     to include disseminating all useful information to the air carriers, HAZMAT
     shippers, and the Department’s Operating Administrations that have HAZMAT
     oversight and enforcement responsibilities.

  5. Implement a pilot project with TSA and one or more air carriers to determine
     the effectiveness and cost of having an automated operating system to record
     and process violations of HAZMAT regulations discovered during the
     screening of passengers’ carry-on and checked baggage. In the interim,
     collaborate with TSA to implement system-wide procedures for notifying FAA
     of HAZMAT incidents associated with passengers’ carry-on baggage.

  6. Issue an advisory circular notifying all air carriers that they must report to FAA
     all unauthorized HAZMAT found in passengers’ checked baggage and take
     enforcement actions against those air carriers not complying with the reporting
     requirements.


  Executive Summary                                                                 xii
  To enhance the Department’s internal HAZMAT regulatory coordination, we
  recommend the Department’s Office of Safety, Energy and Environment:

  7. Establish and implement a process for resolving HAZMAT regulatory disputes
     between FAA and RSPA to ensure that the unique safety requirements for
     shipments of HAZMAT by air are being effectively addressed.

  New Recommendation Added to the Final Report: To strengthen its
  assessments of air carriers’ compliance with HAZMAT regulations, we
  recommend FAA:

  8. Develop and implement a covert testing program to evaluate air carriers’
     compliance with the required acceptance procedures for HAZMAT shipments
     by air. Preferably, a joint program would be established in which FAA works
     with TSA.


MANAGEMENT COMMENTS AND OFFICE OF INSPECTOR
GENERAL RESPONSE
  A draft of this report was provided to FAA and the Department’s Assistant
  Secretary for Transportation Policy on August 20, 2004. In their comments, FAA
  and the Assistant Secretary agreed in general with our recommendations and
  stated that work is underway to address all outstanding issues identified in the
  draft report. For five of the six recommendations addressed to FAA, FAA planned
  actions are responsive to the recommendations. Specifically, to enhance its
  HAZMAT Program, FAA would:

  • Implement a plan to more evenly distribute the HAZMAT enforcement cases
    among the FAA legal offices by December 31, 2004. (Recommendation 2)

  • Develop a streamlined enforcement process for certain HAZMAT violation
    cases involving unauthorized HAZMAT in passengers’ checked and carry-on
    baggage where the HAZMAT division manager, not the attorney, would issue
    notices of violations. FAA would also consider the applicability of such an
    approach for other types of HAZMAT violations that are factually
    straightforward and involve relatively low-dollar penalties. This will require
    rulemaking, and FAA expects to have a Notice of Proposed Rulemaking in
    agency coordination by September 30, 2005. (Recommendation 3)

  • Finalize and publish its advisory circular on the HAZMAT voluntary
    disclosure reporting program by December 31, 2004. Under the voluntary
    disclosure reporting program, air carriers would be allowed to self-report to
    FAA instances of noncompliance with HAZMAT regulations. FAA will issue


  Executive Summary                                                           xiii
   a letter of correction, instead of a civil penalty, for instances of noncompliance
   that are voluntarily disclosed. (Recommendation 4)

• Address the possibility of a pilot project to gain access to TSA’s database that
  identifies passengers who have abandoned the most dangerous HAZMAT at
  screening checkpoints. However, before it can do so, FAA needs to revise its
  existing Agreement with TSA. FAA expects to complete discussions with
  TSA concerning access to its database by December 31, 2004.
  (Recommendation 5)

• Issue an advisory circular clarifying the air carriers’ HAZMAT reporting
  requirements by May 31, 2006.

   FAA stated that it was not necessary, at this time, to issue an advisory circular
   notifying air carriers of their HAZMAT reporting requirements. According to
   FAA, over 3,000 HAZMAT assessments of air carrier airport stations are
   conducting annually, and there have been only a few isolated cases where
   unauthorized HAZMAT was found in passengers’ checked baggage that the air
   carrier did not report to FAA, as required. This is compared to over
   1,000 reports of unauthorized HAZMAT in checked baggage from air carriers
   each month.

   According to FAA, individual air carriers and the Air Transport Association
   have reported that they cannot provide the address of passengers because of
   privacy concerns. To address the privacy concern, FAA is coordinating with
   RSPA to amend the Hazardous Materials Regulations to require disclosure of
   the addresses of passengers who violate the Regulations. FAA anticipates that
   RPSA will issue its Final Rule in February 2006. After the rule is published,
   FAA will issue an advisory circular clarifying the air carriers’ HAZMAT
   report requirements by May 31, 2006. (Recommendation 6)

However, for one recommendation, FAA comments were not fully responsive, and
we are requesting some additional information. We recommended that FAA
institute guidelines and timeframes for conducting HAZMAT investigations,
conducting legal reviews, and issuing Notices of Proposed Civil Penalties through
the coordinated efforts of the Hazardous Materials Division and Office of the
Chief Counsel. (Recommendation 1)

In its response, FAA stated that it would implement new timeframe goals for
(1) completing HAZMAT violation investigations, and (2) initiating and
completing HAZMAT enforcement cases by December 31, 2004. However, FAA
did not believe that guidelines were necessary for conducting HAZMAT
investigations, conducting legal reviews, and issuing Notices of Proposed Civil
Penalties because guidelines already exist under current FAA enforcement policy.


Executive Summary                                                                xiv
We believe that guidelines are necessary and should remain as part of the
recommendation because existing enforcement policy does not include specific
guidelines for when HAZMAT inspectors and attorneys would coordinate during
investigations, legal reviews, and penalty issuance.

During our review of the HAZMAT enforcement process involving civil penalties,
we found that inspectors and attorneys conducted their work independently and
without any coordination. We also found that enforcement cases take an average
of more than 1 year to process, which raises questions about the effectiveness and
efficiency of the investigation and legal review process. In many cases, the
settlement penalties had little, if any, deterrent value against the violators’
noncompliance with HAZMAT regulations because the penalties assessed were
too far removed, in both time and dollar amount, from the incident that initiated
the enforcement action.

We concluded that to better coordinate HAZMAT operating objectives, FAA’s
HAZMAT Division and Office of the Chief Counsel must develop and implement
effective guidelines and timeframes for coordinating their resources in conducting
investigations, conducting legal reviews, and issuing penalties. A clear policy
statement and guidance on coordination between inspectors and attorneys at the
start of an investigation can save both parties time in developing and processing a
case where civil penalties will be recommended.

In its other comments to the draft report, FAA requested that the finding regarding
the reduction in civil penalties by the attorneys from the amount recommended by
the inspectors be placed in context. FAA stated that there are circumstances that
warrant mitigation of the penalty, such as the violator taking corrective action.
FAA also stated that statutes mandate it conduct an evaluation of the HAZMAT
violator’s ability to pay. According to FAA, the violator’s ability to pay
frequently results in a reduction of the recommended penalty. We have revised
the final report to reflect this context.

The Assistant Secretary for Transportation Policy agreed with our
recommendation to implement a process for resolving HAZMAT regulatory
disputes between FAA and RSPA. The Assistant Secretary stated that a process is
being developed for resolving regulatory disagreements between FAA and RSPA
and for any future disagreements between Operating Administrations. The
Assistant Secretary anticipated having a formalized process in place by February
2005. (Recommendation 7) Also, RSPA’s Deputy Administrator believes that
RSPA and FAA are making progress towards building a more cooperative and
collaborative relationship and that regulatory differences are being resolved more
effectively and expeditiously.




Executive Summary                                                               xv
                         TABLE OF CONTENTS

TRANSMITTAL MEMORANDUM
EXECUTIVE SUMMARY .........................................................................i
INTRODUCTION.................................................................................... 1
    Background ....................................................................................... 1
    Objective, Scope, and Methodology.................................................. 2
    Prior Audit Coverage ......................................................................... 3
FINDINGS AND RECOMMENDATIONS............................................... 5
    Resolving Long-Standing Differences Between FAA and
    RSPA on When HAZMAT Is Safe for Shipment by Air ..................... 9
    Conducting Covert Tests To Evaluate Air Carriers’
    Compliance With HAZMAT Regulations ......................................... 13
    Overcoming the Cumbersome, Lengthy, and
    Sometimes Ineffectual Legal Process for Administering
    Enforcement Cases......................................................................... 14
    Implementing a System-Wide Approach for “Putting on
    Notice” Those Passengers Who Violate HAZMAT
    Regulations ..................................................................................... 23
RECOMMENDATIONS........................................................................ 26
MANAGEMENT COMMENTS AND OFFICE OF
INSPECTOR GENERAL RESPONSE................................................. 28
EXHIBIT. FAA’S AND RSPA’S AIR-SPECIFIC HAZMAT
PRIORITIES FOR FISCAL YEAR 2004 .............................................. 32
APPENDIX. MANAGEMENT COMMENTS......................................... 34
INTRODUCTION

                                             Background
Hazardous material (HAZMAT) is defined by the Department of Transportation
(DOT) as a substance or material that is capable of posing an unreasonable risk to
health, safety, and property when transported in commerce. Items that are
determined to be hazardous are listed in the Hazardous Materials Table.1 There
are 3,084 separate items listed in the table; 936 of the items are forbidden on
passenger aircraft, and 615 are forbidden on all-cargo aircraft.

On May 11, 1996, ValuJet Flight 592 crashed in the Florida Everglades, killing
110 passengers and crew, as a result of an in-flight fire from improperly packaged
hazardous materials (chemical oxygen generators) carried in the cargo area. This
accident called into question the effectiveness of the Federal Aviation
Administration’s (FAA) oversight of HAZMAT shipments on commercial aircraft.
At the time of the crash, FAA had about 13 regional inspectors to oversee
industry’s, mostly air carriers’, compliance with HAZMAT requirements.

To strengthen FAA’s oversight of HAZMAT shipments by air and enforcement of
pertinent regulations, Congress included $10.5 million in FAA’s fiscal
year 1997 appropriations, enabling FAA to expand its HAZMAT workforce by
130 personnel (e.g., inspectors, support staff, attorneys). FAA used these funds to
establish the Dangerous Goods/Cargo Security Program2 in what was then FAA’s
Office of Civil Aviation Security Operations.

Since that time, FAA’s oversight of HAZMAT has been in flux. Under the
Dangerous Goods/Cargo Security Program, FAA inspectors had dual roles: (1) as
safety inspectors assessing and enforcing industry’s compliance with HAZMAT
regulations, and (2) as security inspectors assessing and enforcing industry’s
compliance with cargo security requirements. Also, several high-priority aviation
security initiatives, such as those recommended by the White House Commission
on Aviation Safety and Security (following the crash of TWA Flight 800 in 1996),
required FAA to at times increase its oversight of aviation security. This resulted
in a corresponding decrease in oversight of HAZMAT shipments by air.

Immediately following September 11, 2001, FAA’s Dangerous Goods/Cargo
Security Program was suspended so that its inspectors could concentrate on

1
    The Hazardous Materials Table is found in Title 49, Code of Federal Regulations, Section 172.101.
2
    “Dangerous goods” is the international term for hazardous materials transported on aircraft.


Findings and Recommendations                                                                            1
securing the Nation’s aviation system. In February 2002, the Dangerous
Goods/Cargo Security Program was transferred to the Transportation Security
Administration (TSA) but only for a few months. DOT decided that oversight of
HAZMAT shipments would remain within each of its Operating Administrations
with HAZMAT responsibilities, (e.g., FAA, the Federal Railroad Administration,
and the Federal Motor Carrier Administration), so the Dangerous Goods section of
the Program was transferred back to FAA and renamed the Hazardous Materials
Program in October 2002.3 The HAZMAT Program was then joined with FAA’s
Internal Security Program and now resides within FAA’s Office of the Assistant
Administrator for Security and Hazardous Materials.


                 Objective, Scope, and Methodology
The audit objective was to evaluate FAA’s oversight of industry’s compliance
with HAZMAT regulations. Specifically, we assessed whether FAA’s execution
of its Hazardous Materials Program was adequate to ensure industry’s compliance
with HAZMAT regulations. To do this, we focused our audit on FAA’s
(1) administration of HAZMAT enforcement cases, (2) efforts to ensure that
HAZMAT regulations address the unique environment for shipments of
HAZMAT by air, and (3) efforts to prevent unauthorized HAZMAT from being
carried on board passenger aircraft.

The audit was conducted from June 2003 to May 2004 and covered FAA’s
HAZMAT Program activities during the period October 1999 to March 2004. We
conducted our review in accordance with Government Auditing Standards
prescribed by the Comptroller General of the United States.

To evaluate FAA’s oversight of industry’s compliance with HAZMAT
regulations, we interviewed key FAA officials and staff responsible for developing
and implementing the Hazardous Materials Program. We reviewed and analyzed
FAA requirements, directives, and guidance for executing the Program. We
accompanied HAZMAT inspectors as they conducted their assessments of air
carriers’ and shippers’ HAZMAT operations. Due to legal constraints, we did not
conduct covert tests of the procedures for shipping HAZMAT.

We analyzed performance goals, budget documents, HAZMAT assessment
reports, incident reports, incident investigation reports, and other documents we
considered germane to our audit objectives.



3
    During this time, TSA was part of DOT and the Cargo Security section of the Program stayed with TSA. On
    March 1, 2003, TSA was transferred to the Department of Homeland Security.


Findings and Recommendations                                                                             2
We analyzed closed and in-process HAZMAT enforcement cases to determine
how cases had been and were being processed. This work was accomplished by
visiting with attorneys from FAA’s Office of the Chief Counsel, both at FAA
Headquarters and at selected regions.

We performed work at FAA Headquarters and three FAA regions: the
Western-Pacific Region in Lawndale, California; the Southwest Region in Fort
Worth, Texas; and the Southern Region in Atlanta, Georgia. We visited selected
field offices in each region (seven field offices in total). We visited air carrier and
shipper cargo handling facilities located at or near major airports nationwide. We
also met with HAZMAT program officials from DOT’s Office of Intermodal
Hazardous Materials Program, the Research and Special Programs
Administration’s (RSPA) Office of Hazardous Materials Safety, congressional
staff members, and industry representatives to better understand HAZMAT safety
issues.


                                   Prior Audit Coverage
The Office of Inspector General had not conducted an audit of FAA’s Hazardous
Materials Program. In 1998, the Office of Inspector General conducted an audit of
FAA’s Dangerous Goods/Cargo Security program. In that report,4 we focused
primarily on FAA’s inspection and enforcement of industry’s compliance with
cargo security requirements. We found a substantial rate of air carrier and indirect
air carrier5 noncompliance with cargo security regulations. In 2001, we conducted
a follow-up audit6 and found the same or similar levels of air carrier and indirect
air carrier noncompliance with cargo security regulations.

The Department initiated an evaluation of its HAZMAT programs, and the Office
of Inspector General participated in it with the DOT’s Operating Administrations.
The purpose of the evaluation was to assess the effectiveness of DOT’s overall
HAZMAT programs as they affect each step in the HAZMAT transportation
process, from packaging through delivery to end user. In its March 2000 report,7
DOT reported that the HAZMAT programs lacked the Department-wide strategic
planning and direction necessary to ensure effective deployment of resources and
that there were not reliable and sufficient data with which to make informed
program decisions.

4
    OIG Report Number AV-1998-178, “Dangerous Goods/Cargo Security Program,” July 23, 1998. OIG reports can
    be accessed on our website at www.oig.dot.gov.
5
    An indirect air carrier is an entity that accepts cargo from a shipper and delivers it to commercial airlines for
    transport. An airfreight forwarder is considered an indirect air carrier.
6
    OIG Report Number SC-2002-113, “Audit of the Air Cargo Security Program,” September 19, 2002.
7
    Department of Transportation, “Departmentwide Program Evaluation of the Hazardous Materials Transportation
    Programs,” March 2000.


Findings and Recommendations                                                                                       3
In response to a congressional request, the General Accounting Office8 issued a
report, “Undeclared Air Shipments of Dangerous Goods and DOT’s Enforcement
Approach,” in January 2003. It reported that DOT, the Postal Service, and major
air carriers know that undeclared air shipments of hazardous materials occur and
can have serious consequences but that there are no statistically valid data to
reliably estimate the nature and frequency of such shipments.




8
    As of July 2004, this organization changed its name to the Government Accountability Office.


Findings and Recommendations                                                                       4
FINDINGS AND RECOMMENDATIONS
FAA’s importance in overseeing industry’s compliance with HAZMAT
regulations cannot be overstated. Each year, about 50,000 routine shippers of
HAZMAT offer each day to 200 U.S. and 200 foreign air carriers HAZMAT
packages for shipment by air. However, comprehensive statistics are not collected
on the aggregate number of declared and authorized HAZMAT packages or
tonnage shipped within the U.S. each day or each year. Adding to the uncertainty
is the unknown number of undeclared, unauthorized HAZMAT shipments by air
on any given day.

Also, violations of HAZMAT regulations are prevalent, with more than
11,000 enforcement cases investigated during the period 1999 to 2003 and more
than $35 million collected in civil penalties for the same period. In an
enforcement case investigated by our office with assistance from FAA, an
all-cargo air carrier pled guilty to 12 felony counts of violating HAZMAT
regulations and agreed to pay a criminal penalty of $6 million.

Ensuring the safe shipment of HAZMAT by air is inherently a safety matter.
Improperly shipping HAZMAT by air through either negligent or illicit behavior
can have the same consequences as a terrorist attack, as demonstrated by the
ValuJet Flight 592 crash as a result of an in-flight fire from improperly packaged
hazardous materials. This helps underscore the challenge that FAA faces in
strengthening the safety of HAZMAT transported by air.

Since the transfer from TSA to FAA of the aviation HAZMAT Program, FAA has
made considerable progress in reestablishing it as a bona fide program for
overseeing and enforcing industry’s compliance with HAZMAT regulations.
Since October 2002, FAA has realigned the Program’s organizational structure
and personnel distribution, hired and trained new members of its workforce,
developed and implemented guidance and work plans for conducting inspections
and investigations, and created an automated system for collecting and reporting
the results of inspection and enforcement activities.

In our opinion, FAA’s HAZMAT Program is a better run program today than
when it was part of the Dangerous Goods/Cargo Security Program in what was
then FAA’s Office of Civil Aviation Security Operations. Nevertheless, the
current situation is far from an “end state” for ensuring the safety of HAZMAT
shipments by air, and new approaches are needed in managing the HAZMAT
Program.




Findings and Recommendations                                                    5
Specifically, FAA needs to:

• Resolve long-standing differences between FAA and RSPA on when
  HAZMAT is safe for shipment by air. RSPA is responsible for rulemaking
  governing the safety of HAZMAT for all modes of transportation. It is not
  uncommon for FAA and RSPA to disagree on how the rules should be worded,
  as the rules are often based on the requirements for shipments by surface
  transportation with adjustments sometimes, but not always, made for
  shipments by air.

   FAA has raised concerns to RSPA regarding long-standing air-specific
   package failures. For example, FAA has concerns that RSPA’s standards for
   testing and packaging lithium batteries are not sufficient for their safe shipment
   by air. Specific concerns include that the packaging is not sufficient to protect
   the lithium batteries from damage and short-circuiting or from self-ignition if
   exposed to the heat from a cargo fire.

   Several incidents have occurred involving the shipment of lithium batteries in
   air cargo. Most recently, on August 7, 2004, a shipment of lithium batteries
   was involved in a fire at the airport hub of a major all-cargo carrier. The
   carrier’s ramp personnel detected smoke coming out of a cargo container in the
   aft section of the aircraft. After the container had been removed from the
   aircraft and placed on the ramp, the container burst into flames. The fire was
   traced to a package containing lithium batteries.

   Discussions between FAA and RSPA on the lithium batteries issue and other
   issues on specific rules governing shipments of HAZMAT by air have been
   ongoing for 5 years without any effective resolution. The Department is in the
   process of issuing an interim final rule on the shipment of lithium batteries by
   air. However, the Department needs a process for resolving disputes of this
   nature to ensure that the unique safety requirements for shipments of
   HAZMAT by air are being effectively addressed.

• Conduct covert tests to evaluate air carriers’ compliance with HAZMAT
  regulations. FAA has developed a HAZMAT safety assessment questionnaire
  used in evaluating air carriers’ and shippers’ compliance with HAZMAT
  regulations. FAA HAZMAT inspectors conduct on-site assessments at
  shippers’ and air carriers’ facilities that include, among other things, audit tests
  of HAZMAT shipping documents to ensure that the documents are complete
  and accurate and that only authorized HAZMAT items are being or were
  shipped by air.

   However, we found that HAZMAT inspectors were not conducting covert tests
   of air carriers’ HAZMAT acceptance procedures. FAA’s Office of the Chief


Findings and Recommendations                                                        6
   Counsel has advised HAZMAT Program officials that it cannot conduct covert
   tests of air carriers’ and shippers’ hazardous materials acceptance procedures
   without an exemption to regulatory requirements contained in Title 49 Code of
   Federal Regulations. It is against regulations to place a hazardous materials
   label on a package that does not contain hazardous material.

   In our opinion, a covert testing program is needed to measure the efficacy of
   the air carriers’ acceptance procedures for HAZMAT shipments by air,
   separate from the inspectors’ on-site assessments and done surreptitiously.
   Such testing would, for example, include covert test scenarios in which FAA
   “testers” would pose as unknown shippers and offer to the air carriers
   shipments that do not conform to HAZMAT regulations, such as packages that
   do not have the proper markings identifying the type of HAZMAT being
   shipped. However, test packages should not actually contain any HAZMAT to
   avoid the risk of a HAZMAT incident. A joint program with TSA could be
   established so that HAZMAT safety and cargo security testing could be
   conducted concurrently.

• Overcome the cumbersome, lengthy, and sometimes ineffectual legal
  process for administering HAZMAT enforcement cases.                    FAA’s
  cumbersome legal process for administering HAZMAT enforcement cases
  needs to be changed. Under the current process (1) enforcement actions are
  taking on average more than a year to complete; (2) final settlements are on
  average only 41 percent (41 cents on the dollar) of the penalty proposed by
  inspectors conducting the HAZMAT investigation; (3) 25 percent of the
  enforcement cases we reviewed in one region were not pursued because of
  FAA’s inability to meet its self-imposed 2-year rule for filing a Notice of
  Proposed Civil Penalty; and (4) enforcement caseloads are not distributed
  equitably, with an average of 166 in-process cases per attorney in one region
  and an average of 16 in-process cases per attorney in another.

   FAA needs to institute acceptable guidelines and timeframes for conducting
   HAZMAT investigations, conducting legal reviews, and issuing civil penalties.
   Also, to change the process for administering HAZMAT enforcement cases,
   FAA must develop acceptable alternate ways of doing business. One example
   of an alternate approach is a “ticket” system in which HAZMAT inspectors
   without attorney involvement assess a civil penalty against a HAZMAT
   violator for what FAA considers less-serious offenses.

• Implement a system-wide approach for “putting on notice” those
  passengers who have violated HAZMAT regulations.              FAA has a
  Memorandum of Agreement (Agreement) with TSA addressing collaborative
  relationships, to include HAZMAT issues. However, some of the provisions in


Findings and Recommendations                                                   7
   the Agreement have not been fully implemented to prevent passengers from
   offering unauthorized HAZMAT items in their checked and carry-on baggage.

   For example, in the Agreement, FAA and TSA agree to establish procedures
   for a referral process when TSA finds passengers with any prohibited
   HAZMAT items in their carry-on baggage. Such items could include
   fireworks, safety and road flares, tear gas, pepper spray, flammable gas
   torches, flammable aerosols, household bleach, and hydrogen peroxide.
   However, system-wide referral procedures have not been developed, and any
   referral procedures that do exist were developed at the local level.

   The amount of HAZMAT discovered in carry-on and checked baggage from
   the 429 airports where TSA operates is voluminous. For example, during the
   last 6 weeks of 2003, TSA was responsible for the emergency removal of
   8,312 pounds of HAZMAT from 18 airports. Without a standardized, uniform
   referral approach, FAA has no way of “putting on notice” those passengers
   who have violated HAZMAT regulations or identifying those passengers who
   are repeatedly violating the regulations.

   FAA should work with TSA to revise the Agreement so it better defines the
   roles and responsibilities between the two Administrations for preventing
   unauthorized HAZMAT from being carried on board passenger aircraft. Also,
   one step toward implementing system-wide referral procedures would be for
   FAA to initiate a pilot project with TSA and one or more air carriers to
   determine the effectiveness and cost of an automated operating system to
   record and process violations of HAZMAT regulations discovered during the
   screening of passengers’ carry-on and checked baggage.

During the course of our review, we also identified minor deficiencies in areas
where FAA could improve the efficiency of the Program’s operations, such as
verifying the completeness and accuracy of inspectors’ labor distribution reports
and clarifying the guidance used for conducting HAZMAT assessments of air
carriers and shippers. These and other findings, along with actions needed to
improve efficiencies in the Program’s operations, were presented in a briefing
before the Assistant Administrator and the staff of the Office of Security and
Hazardous Materials on June 9, 2004. At that briefing, FAA officials agreed
actions were needed to improve the efficiencies of its HAZMAT operations and
stated that work is underway to address these deficiencies.




Findings and Recommendations                                                   8
   Resolving Long-Standing Differences Between
    FAA and RSPA on When HAZMAT Is Safe for
                 Shipment by Air
FAA is responsible for overseeing and enforcing regulations pertaining to the
shipment of HAZMAT by air. However, the Secretary of Transportation has
delegated to RSPA the responsibility for rulemaking governing the safety of
HAZMAT for all modes of transportation. RSPA requests and receives input from
FAA as to how proposed rulemakings would affect the safe transportation of
HAZMAT by air, but FAA does not have approval authority over RSPA’s final
rules. It is not uncommon for FAA and RSPA to disagree on how the rules should
be worded, as the rules are often based on the requirements for shipments by
surface transportation with adjustments sometimes, but not always, made for
shipments by air.

During the course of our audit, FAA identified the following five significant areas
of hazardous materials safety that it deemed detrimental to the safe passage of
HAZMAT shipments by air and that needed to be immediately addressed through
the coordinated efforts of FAA and RSPA. The exhibit lists FAA’s air-specific
HAZMAT strategic plan priorities for fiscal year 2004 and RSPA’s corresponding
priorities.

• Non-spillable electric storage batteries. Laptop computers, electric lawn
  mowers, electric hand trucks and uninterruptible power sources have caused
  fire and smoke incidents during air transportation.

• Lithium batteries. FAA has concerns that industries’ “on-time delivery”
  expectations will continue to fuel air shipments of lithium batteries from the
  battery manufacturer in one location to the device assembly point in another.
  Several lithium battery fires have occurred in air cargo over the last 5 years.

• Air-specific HAZMAT packaging standards. FAA needs to work with
  RSPA in examining existing air-mode packaging standards and to consider the
  need to establish a testing protocol for air-specific packaging.

• Flammable aerosols in luggage and the apparent effects of static
  electricity. There are reports of unexplained suitcase “explosions” on airport
  conveyor belts, where a common factor has been flammable vapor build-up
  within the suitcase. The effects of static electricity are suspected as a
  contributing factor in these cases.

• Diagnostic Specimens. This is an ongoing area of discussion between FAA
  and RSPA. FAA is requesting that the captain-in-command be notified of all


Findings and Recommendations                                                     9
   infectious substances and diagnostic specimens carried on board passenger and
   all-cargo aircraft.

FAA has been attempting to resolve these significant hazardous materials safety
issues with RSPA for over 5 years. For example, in 1999, FAA raised concerns
about the shipment of bulk-packed, nonrechargable lithium batteries after a pallet
of lithium batteries caught fire while being handled between flights at Los Angeles
International Airport. In September 2000, RSPA issued a safety advisory and
FAA issued a Dangerous Goods Advisory Bulletin to air carriers concerning the
shipment of lithium batteries by air.

Since that time, several other incidents have occurred involving the shipment of
lithium batteries in air cargo. Most recently, on August 7, 2004, a shipment of
lithium batteries was involved in a fire at the airport hub of a major all-cargo
carrier. The carrier’s ramp personnel detected smoke coming out of a cargo
container in the aft section of the aircraft. After the container, seen in Figure 1,
was removed from the aircraft and placed on the ramp, the container burst into
flames. The fire was traced to a package containing lithium batteries, as seen in
Figure 2. The incident is currently under investigation by the National
Transportation Safety Board.


      Figure 1. Damage to Cargo Container Caused by a Fire
                   Involving Lithium Batteries




Findings and Recommendations                                                     10
Figure 2. Scorched Lithium Batteries      Not until recently has there been any
                                          serious effort to resolve the lithium
                                          batteries issue and only as a direct
                                          result of (1) the August 7th incident;
                                          (2) FAA’s technical report issued in
                                          June 2004 concluding that lithium
                                          batteries pose a unique threat in the
                                          cargo compartment of an aircraft
                                          because lithium fires cannot be
                                          extinguished by Halon 1301, the only
                                          FAA-certified fire suppressant system
                                          that is permitted for use in cargo
compartments of passenger-carrying aircraft; and (3) the attention at the highest
levels in the Department’s management, including the Secretary and Deputy
Secretary.

Also, in its September 29, 2004 letter to RSPA’s Associate Administrator for
Hazardous Materials Safety, the Air Line Pilots Association, International
petitioned RSPA to prohibit bulk shipments of lithium batteries from both
passenger and cargo-only aircraft until adequate packaging standards are in place.

In another example, again in 1999, FAA raised concerns that certain packaging
standards (e.g., cap seal closure of plastic containers for liquid products)
developed by RSPA as acceptable for HAZMAT shipments are not acceptable for
shipment by air. This type of packaging is certified by RSPA to carry liquids that
are flammable, corrosive, or both, such as gasoline and aviation fuel. FAA
contends that when exposed to high altitudes and pressurization during air travel,
the containers are no longer viable for transporting flammables and corrosives.

FAA’s concerns are based on actual incidents when the containers leaked during
flights. In 1999, FAA conducted an analysis of 1998 and 1999 HAZMAT
incidents reports and found that airlines reported to FAA 831 incidents of
packaging having leaked during flight. In one incident in March 1999, an
all-cargo carrier reported that 240 milliliters of isobutyric acid9 was discovered
leaking from a package at one of the air carriers’ sorting facilities. The package
had already flown from Newark to the sorting facility. According to the
HAZMAT incident report, a cap seal had apparently failed. No deaths, injuries, or
physical damage to an aircraft or ground facility were reported, but considering
the volatility of this liquid, the potential existed for serious consequences to have
occurred.


9
    Isobutyric acid is a flammable/combustible material that can be ignited by heat, sparks, or flames. When ignited, it
    will produce irritating, corrosive, or toxic gas.


Findings and Recommendations                                                                                        11
In another incident in March 1999, an all-cargo carrier reported that 30 milliliters
of a corrosive liquid, sodium metasilicate,10 was discovered leaking from a
package after it had been off-loaded from an aircraft in Anchorage, Alaska. The
HAZMAT incident report stated that the lid seal on a plastic drum had failed,
allowing release of the material.

During this time, FAA brought its concerns to the attention of RSPA and
requested that RSPA participate in FAA-funded studies that have shown this
particular container as being not airworthy for shipping HAZMAT. RSPA does
not agree with the type of studies FAA conducted. RSPA, however, in late 2003
joined the testing consortium used by FAA in evaluating HAZMAT containers
and packaging.11

The Air Line Pilots Association has the FAA-funded study on the seal closure of
plastic containers for liquid products and plans to present the study to its member
pilots. Also, several member air carriers of the Air Transport Association have
seen the study and are interested in knowing what actions FAA will be taking on
this issue.

RSPA officials say that incidents of leaking containers are infrequent and
statistically negligible and that the cost of preventing a single leak may far
outweigh the benefits derived. Also, many factors need to be taken into
consideration before changing U.S. HAZMAT policies because of the impact such
a change can have on how HAZMAT is handled and processed for transport
worldwide.

Although FAA can issue advisory circulars to shippers and air carriers on this
matter, without RSPA specifically changing its HAZMAT regulations, the
packaging can still be used for shipments of HAZMAT by air. Discussion
between FAA and RSPA on this packaging issue and other issues on specific rules
governing shipments of HAZMAT by air have been ongoing for 5 years without
any effective resolution. The Department is in the process of issuing an interim
final rule on the shipment of lithium batteries by air. However, the Department
needs a process for resolving disputes of this nature to ensure that the unique
safety requirements for shipments of HAZMAT by air are being effectively
addressed.




10
     Contact with sodium metasilicate can result in severe skin irritation; inhalation of sodium metasilicate dusts can
     irritate the upper respiratory tract.
11
     During the course of our audit, FAA and RSPA agreed to find consensus on issues concerning the transportation of
     HAZMAT via air by forming working groups.


Findings and Recommendations                                                                                       12
Conducting Covert Tests To Evaluate Air Carriers’
    Compliance With HAZMAT Regulations
FAA has developed a HAZMAT safety assessment program used in evaluating air
carriers’ and shippers’ compliance with HAZMAT regulations. FAA HAZMAT
inspectors conduct on-site assessments at shippers’ and air carriers’ facilities that
include, among other things, audit tests of HAZMAT shipping documents to
ensure that the documents are complete and accurate and that only authorized
HAZMAT items are being or were shipped by air. During the assessments,
HAZMAT inspectors can also observe the air carriers procedures for HAZMAT
acceptance, storage, handling, and loading on board aircraft.

Overall, we found that the inspectors’ HAZMAT assessments were generally
effective in evaluating the air carriers’ compliance with HAZMAT regulations.
However, we found that HAZMAT inspectors were not conducting covert tests of
air carriers’ HAZMAT acceptance procedures. FAA’s Office of the Chief
Counsel has advised HAZMAT Program officials that it cannot conduct covert
tests of air carriers’ and shippers’ hazardous materials acceptance procedures
without an exemption to regulatory requirements contained in Title 49 Code of
Federal Regulations. It is against regulations to place a hazardous materials label
on a package that does not contain hazardous material.

Also, TSA requires that air carriers accept cargo only from shippers under the
Known Shipper Program. In other words, TSA prohibits air carriers from
accepting cargo from an unknown shipper. Under the Known Shipper Program,
air carriers are required to verify shippers’ legitimacy.

In our opinion, a covert testing program is needed to measure the efficacy of the
air carriers’ acceptance procedures for HAZMAT shipments by air, separate from
the inspectors’ on-site assessments and done surreptitiously. Such testing goes
beyond checking if documentation and training are adequate to verifying that in
practice proper acceptance procedures are being followed. Such testing would for
example, include covert test scenarios whereby FAA “testers” would pose as an
unknown shipper and offer to the air carriers shipments that do not conform to
HAZMAT regulations, such as packages that do not have the proper markings
identifying the type of HAZMAT being shipped. However, test packages should
not actually contain any HAZMAT to avoid the risk of a HAZMAT incident. A
joint program with TSA could be established so that HAZMAT safety and cargo
security testing could be conducted concurrently.

Before it could begin covert testing of the air carriers’ HAZMAT acceptance
procedures, FAA would have to request from RSPA an exemption to the section of
the HAZMAT regulation that prohibits placement of a hazardous materials label


Findings and Recommendations                                                      13
on a package that does not contain hazardous material. Also, a joint program
established with TSA would allow for concurrent covert testing of HAZMAT
safety regulations and the Known Shipper Program requirements.


     Overcoming the Cumbersome, Lengthy, and
      Sometimes Ineffectual Legal Process for
         Administering Enforcement Cases
FAA’s cumbersome legal process for administering HAZMAT enforcement cases
needs to be changed. Civil penalty enforcement cases are taking years to process,
proposed penalties are often greatly reduced at settlement, and some enforcement
cases are not pursued due to enforcement time constraints. We analyzed
completed cases where an Order Assessing Civil Penalty had been rendered at
three FAA regional offices and found that:

   • The time required to complete a HAZMAT enforcement case, from date of
     incident to assessment of the penalty, ranged on average from 348 days in
     the Southwest Region to 873 days in the Southern Region.

   • Final settlements were, on average, only 41 percent (41 cents on the dollar)
     of the penalty proposed by inspectors conducting the HAZMAT
     investigation.

   • Twenty-five percent of the enforcement cases we reviewed in one region
     were not pursued because of FAA’s inability to meet its self-imposed
     2-year rule for filing a Notice of Proposed Civil Penalty.

   • Enforcement caseloads are not distributed equitably, with an average of
     166 and 110 in-process cases per attorney in two regions and an average of
     16 in-process cases per attorney in another region.

If FAA is to reduce the number of HAZMAT violations and the risk of a
HAZMAT-related accident, its enforcement program must react to HAZMAT
violations in a more expeditious manner. FAA’s Office of Security and
Hazardous Materials and Office of the Chief Counsel must develop and implement
effective guidelines and timeframes for coordinating their resources in conducting
investigations, conducting legal reviews, and issuing Notices of Proposed Civil
Penalty.




Findings and Recommendations                                                   14
HOW MUCH TIME IS TOO MUCH TIME?
Our review of 798 HAZMAT enforcement cases at three FAA regional offices for
the period October 1, 1999, through August 7, 2003, found that on average it took
between 348 and 873 days to process a HAZMAT enforcement case from the date
the HAZMAT incident occurred to the date the civil penalty was rendered (as seen
in Table 1). Processing HAZMAT enforcement cases involves conducting
investigations, conducting legal reviews, and issuing civil penalties. Generally,
FAA expects that investigations will be completed and the case initiated by
counsel within 180 days.


                    Table 1. Average Number of Days Elapsed
                   in Processing HAZMAT Enforcement Cases
   Region            Cases            Cases                     Average Number of Days from:
                   Initiateda       Completeda
                                                         Date of        Receipt          NOPCP          Incident
                                                        Incident        by Legal           to              to
                                                           to              to            OACPd           OACPe
                                                        Receipt         NOPCPc
                                                           by
                                                         Legalb

 Southwest               99                85              128               95             136            348
 Western                141               117              186              159             151            477
 Pacific
 Southern               558               267              244              413             216            873
  Total                 798               469
NOPCP: Notice of Proposed Civil Penalty, OACP: Order Assessing Civil Penalty
a. Total number of cases FAA initiated as of 10/01/99 and cases completed by 08/07/03. Cases were considered
   completed if an Order Assessing Civil Penalty had been issued.
b. Average number of days from the date of the incident to the date the Office of Hazardous Materials provided its
   case for proposed civil penalty to the Office of the Chief Counsel.
c. Average number of days from the date the Office of the Chief Counsel received the case from the Office of
   Hazardous Materials to the date the Office of the Chief Counsel issued a Notice of Proposed Civil Penalty.
d. Average number of days from the Office of the Chief Counsel’s Notice of Proposed Civil Penalty to the date the
   Order Assessing Civil Penalty was rendered.
e. Average days from the date of the incident to the date of the penalty being assessed.


Our review of the HAZMAT enforcement process involving civil penalties
disclosed that inspectors and attorneys conducted their work independently and
without any coordination. Seldom was there any communication between
inspectors developing HAZMAT violation cases and attorneys who would process
the cases. As a matter of practice, inspectors did not contact attorneys during the
course of their investigations.


Findings and Recommendations                                                                                    15
Once investigations were completed, including all reviews and approvals within
each region’s Hazardous Materials Division, the cases were forwarded to each
region’s Office of the Chief Counsel for legal review. Attorneys started their
reviews of the HAZMAT cases by reading, for the first time, the inspector’s report
and summary conclusions. If an attorney felt an investigation lacked sufficient
data or details or the attorney just needed more information, the attorney would
then contact the investigating inspector. This might not take place until more than
a year after the incident had taken place.

Simple coordination between inspectors and attorneys at the start of an
investigation can save both parties time in developing and processing a case where
civil penalties will be recommended. Inspectors should state their reasons for
developing a case, and attorneys should provide advice about the projected
strength of a case and what the inspectors need to provide to help ensure a strong
case is presented. Without up-front communication between inspectors and
attorneys, neither group can benefit from the other’s knowledge and skills.

Enforcement cases that take an average of more than 1 year to process raise
questions about the effectiveness and efficiency of the investigation and legal
review process. In many cases, the settlement penalties had little, if any, deterrent
value against the violators’ noncompliance with HAZMAT regulations because
the penalties were often assessed too long after the incident and in reduced
amounts no longer commensurate with the severity of the infraction.

FAA’s Office of Security and Hazardous Materials and Office of the Chief
Counsel must re-evaluate the amount of time expended on cases. To better
coordinate HAZMAT operating objectives, they must develop and implement
effective guidelines and timeframes for coordinating their resources in conducting
investigations, conducting legal reviews, and issuing penalties. In doing so, FAA
should look at the enforcement processes at other DOT Operating Administrations
with HAZMAT programs for ways to improve the efficiency of its own process.

For example, the Federal Railroad Administration’s policy is for its HAZMAT
inspectors to prepare violation reports indicating the seriousness of a violation and
for one of its attorneys to determine the civil penalty. The inspector’s report will
be reviewed by a regional HAZMAT specialist and forwarded to Federal Railroad
Administration Headquarters within 30 days of the inspection report. An assigned
attorney at the Headquarters will review the case and any special circumstances
discussed by the inspector and determine the appropriate civil penalty. Attorney
processing is expected to be completed within 90 days of the report’s arrival at the
Headquarters.




Findings and Recommendations                                                      16
SIGNIFICANT REDUCTIONS IN CIVIL PENALTIES
FAA HAZMAT inspectors and attorneys conduct their investigations and
enforcement activities in a conscientious manner. However, the monetary
penalties rendered from their efforts are often significantly reduced. We analyzed
the results of 469 enforcement cases where an Order Assessing Civil Penalty
against a violator had been issued and found that the final settlements on average
were only 41 percent of the civil penalty proposed by the HAZMAT inspectors (as
seen in Table 2).


        Table 2. Final Settlement as a Percentage of Civil Penalties
                   Proposed by the HAZMAT Inspectors
       FAA Region             No. of      Civil Penalties          Final           Final Settlement as a
                              Casesa       Proposed by          Settlement          Percentage of Civil
                                            HAZMAT                                  Penalties Proposed
                                            Inspectors                                by HAZMAT
                                                                                        Inspectors
    Southwest                    85        $3,442,875           $1,400,950                41%
    Western Pacific             117          2,910,025           1,128,042                  39%
    Southern                    267        13,196,825            5,497,003                  42%
    Total/Percentage            469       $19,549,725           $8,025,995                  41%
a
    Initiated on or after October 1, 1999, with an Order Assessing Civil Penalty issued as of August 7, 2003.

Attorneys have the prerogative to change an inspector’s proposed penalty and
often do. For example, FAA is required by statute to conduct an evaluation of the
HAZMAT violator’s ability to pay. According to FAA, this evaluation often
results in a reduction in the civil penalties proposed by HAZMAT inspectors.

For the 469 cases analyzed, the attorneys reduced the proposed penalty in
147 cases (31 percent) and increased the proposed penalty in 35 (7 percent).
However, the final settlements were, on average, only 51 percent of what the
attorneys themselves had recommended (as seen in Table 3).




Findings and Recommendations                                                                                17
    Table 3. Final Settlement as a Percentage of Civil Penalties
                Proposed by the HAZMAT Attorneys
  FAA Region         No.        Civil         Final      Final Settlement as a
                     of       Penalties    Settlement     Percentage of Civil
                    Cases   Proposed by                  Penalties Proposed by
                             HAZMAT                      HAZMAT Attorneys
                             Attorneys
Southwest             85     $2,650,375    $1,400,950             53%
Western Pacific      117      1,839,900     1,128,042             61%
Southern             267     11,384,975     5,497,003             48%
Total/Percentage     469    $15,875,250    $8,025,995             51%

In the 469 cases analyzed, the HAZMAT inspector had proposed a civil penalty of
$5,000 or less for 86 cases (as seen in Table 4), but 175 cases ended up being
assessed a penalty of $5,000 or less (Table 5), more than double the number
proposed. The results for the smallest cases, those for which the proposed penalty
was $1,000 or less, was even more striking. Six cases had penalties proposed at
that level, but 74 cases were closed for $1,000 or less—an 11-fold increase.


Table 4. Summary of Civil Penalties Proposed at $5,000 and Less
      FAA           Number of Civil Penalties Proposed by HAZMAT Inspectors
     Region        $1,000  $1,001-     $2,001-      $3,001-  $4,001-  Total
                   or less  2,000        3,000       4,000    5,000
 Southwest            0       5            7            1        3      16
 Western Pacific      3      12          13             3       10      41
 Southern             3       5            3          11         7      29
  Total               6      22          23            15       20      86
  Percentage         7%      26%         27%          17%      23%     100%

    Table 5. Summary of Final Settlements at $5,000 and Less
      FAA             Number of Civil Penalties Settled by HAZMAT Attorneys
     Region        $1,000  $1,001-      $2,001-       $3,001- $4,001-   Total
                   or less  2,000        3,000         4,000   5,000
 Southwest           18         3         10              3       4       38
 Western Pacific     22       13           17             5       6       63
 Southern            34         8         10              8     14        74
  Total              74       24          37             16      24      175
  Percentage         42%      14%          21%            9%    14%      100%




Findings and Recommendations                                                     18
Assessments averaging only 41 percent of the penalty proposed by the HAZMAT
inspectors or 51 percent of the penalty proposed by the attorneys and an 11-fold
increase in final settlements versus proposed penalties of $1,000 or less raise
questions about whether certain cases should go through the current civil penalty
process. FAA’s Office of Security and Hazardous Materials and Office of the
Chief Counsel need to revise the policy for processing civil penalties to include
guidance on which cases could go through the civil penalty process without an
attorney’s involvement.


CIVIL PENALTY CASES NEVER PURSUED
The Federal Government has 5 years from the date of a HAZMAT incident to state
whether it will prosecute a HAZMAT violator.12 FAA has self-imposed a 2-year
rule from the date of an incident to provide a violator with a Notice of Proposed
Civil Penalty. In the Southern Region, we analyzed various types of information
from 104 of 558 cases initiated and found 26 cases (25 percent) that had not been
processed within FAA’s time constraints or had not been reviewed by attorneys in
time to allow for proper processing of the cases within 2 years of the incident. All
26 cases, with initial proposed penalties totaling $910,750, were closed without
the alleged violators paying a fine. Of the 26 cases:

• Eleven cases were closed because Notices of Proposed Civil Penalty had not
  been issued within 2 years. These 11 cases contained proposed civil penalties
  totaling $326,875 and ranged from $1,000 to $84,000.

• Six cases were not pursued because the attorneys determined the investigation
  lacked sufficient evidence. However, FAA’s final action of determining the
  sufficiency of evidence was not accomplished until the 2-year period had
  lapsed. These six cases had initial proposed penalties totaling $291,500 and
  ranged from $30,000 to $110,000. We question that cases with such large
  fines would be lacking in sufficient evidence. It would appear that the cases
  had reached their 2-year limit, and the attorneys were forced to close the cases.

• Nine cases where a Notice of Proposed Civil Penalty had been issued to
  alleged HAZMAT violators but were not processed until less than a month
  before the 2-year window closed. All nine cases had to be closed by the Office
  of the Chief Counsel without further processing. The violators could no longer
  be located, had closed businesses, or the notices had to be delivered to
  violators located outside the United States. Since the notices were not received
  by the violators within 2 years of the violations, the cases were closed without


12
     Title 28 United States Code Section 2462.


Findings and Recommendations                                                     19
   further action. The nine cases had initial proposed penalties totaling $292,375,
   ranging from $9,000 to $52,500.

This situation of civil penalty cases not pursued to finality because of a
self-imposed 2-year rule raises questions about whether the 2-year period needs to
be extended, HAZMAT inspectors and attorneys need to coordinate case workload
earlier in the investigation and civil penalty process, or both. FAA’s Office of
Security and Hazardous Materials and Office of the Chief Counsel need to
establish guidance for how enforcement cases should be evaluated before time
constraints become the deciding factor on whether cases should go through the
civil penalty process.


INSPECTOR STAFFING VERSUS ATTORNEY STAFFING
The FAA’s Office of Security and Hazardous Materials is now fully staffed, but
the number of attorneys available to process HAZMAT cases has been reduced.
In 1997, there were 109 inspectors available to inspect, investigate, and prepare
enforcement cases (in addition to their cargo security work). At the same time, the
Office of the Chief Counsel had about 16 attorneys (12 full-time and 4 part-time
attorneys) processing HAZMAT enforcement cases. This resulted in a ratio of
about eight inspectors for every attorney processing cases. As of October 1, 2003,
there were 135 inspectors dedicated full-time to FAA HAZMAT operations. The
Office of the Chief Counsel had about 14 attorneys (7 full-time and 7 part-time
attorneys) processing enforcement cases. This has resulted in a ratio of about
13 inspectors for every attorney processing cases.

Over the last 6 years, the ratio of inspectors to attorneys working HAZMAT cases
has increased 41 percent. The increase in inspectors over attorneys is magnified
beyond basic percentage increases because today’s inspectors are dedicated
full-time to HAZMAT work, while 6 years ago the inspectors also had cargo
security duties.

The increased ratio of inspectors to attorneys can only have a negative affect on
the timeliness of processing civil penalty enforcement cases. In the three regions
we visited, the average number of enforcement cases in-process handled by each
attorney ranged from 16 in the Southwest Region to 166 in the Western-Pacific
Region (as seen in Table 6).




Findings and Recommendations                                                    20
            Table 6. Enforcement Caseload for Attorneys
                       in Three FAA Regions
   FAA Region           Attorneys          HAZMAT Cases         Average Number
                       Dedicated to        In-Process as of      of HAZMAT
                      HAZMAT Cases            08/07/03             Cases Per
                                                                   Attorney
 Southwest                    2                   31                    16
 Western Pacific              1                  166                   166
 Southern                     4                  441                   110

An average case load of 16 cases per attorney is certainly manageable, but an
average case load of 110 to 166 cases may contribute to some cases never being
processed and a possible willingness to reduce penalties to get a quick settlement.

Also, it appears that the number of attorneys dedicated to HAZMAT cases in the
three regions under review is disproportionate to the attorney enforcement
caseload. The Southwest region has 2 attorneys dedicated to HAZMAT cases and
an average of 16 cases per attorney versus the Western Pacific region with
1 attorney and an average of 166 cases. FAA needs to implement a nationwide
plan that better distributes the number of HAZMAT cases per attorney.


DEVELOPING ALTERNATIVE MEANS OF ADMINISTERING
ENFORCEMENT CASES
Enforcement actions are taking at least a year to complete on average. Time and
effort from inspectors and attorneys are resulting in only a 41 percent settlement
on initially proposed penalties. There are more inspectors in 2003 than there were
in 1997, but there are fewer attorneys dedicated to HAZMAT cases in 2003 than
there were in 1997. Driven by the lack of resources to effectively manage the case
workload and the questionable effectiveness of the penalty process, the Office of
Hazardous Materials and the Office of the Chief Counsel must develop acceptable
alternate ways of doing business.


Alternative Approaches to Expediting the Process
One example of an alternate approach to expedite the process is a procedure used
by RSPA. Its HAZMAT inspectors use a streamlined “ticket” system for what
RSPA considers less-serious offenses. Based on their own work during
inspections, RSPA’s inspectors can propose assessing a civil penalty against a
HAZMAT violator. Violations under the ticket process are prepared by inspectors
and then reviewed, approved, and issued by the inspector’s supervisor without


Findings and Recommendations                                                    21
attorney involvement. Also, RSPA’s system offers the violator a discount on the
fine if the assessed penalty is paid within 45 days. Violators can always contest
the tickets and go through RSPA’s standard violation process.

This process greatly reduces the time spent by attorneys in the resolution process
for minor offenses. FAA’s Office of Hazardous Materials, in coordination with
FAA’s Office of the Chief Counsel, needs to consider such a process and other
processes that could expedite the civil penalty process.


Implementing a Voluntary Disclosure Reporting Program
Reducing the enforcement case workload could also expedite the administration of
HAZMAT enforcement cases. This could be accomplished by developing
self-disclosure policy and procedures for reporting unsafe practices. FAA’s Flight
Standards Service employs a self-disclosure program for aircraft maintenance and
flight operations.     Flight Standards Service considers the programs very
productive in encouraging airline personnel to advise FAA in ways to discuss,
approve, and implement safety practices. The self-disclosure program helps FAA
and the air carriers work together to promote and ensure safe operating
procedures. This program has been in use for over a decade and has worked well
in identifying safety improvements in aircraft maintenance and flight operations
that FAA ordinarily would not have discovered during its routine inspections.

At the initiation of our audit, there was no comparable program for transporting
HAZMAT by air. However, in April 2004, FAA’s HAZMAT Division drafted an
advisory circular establishing a voluntary disclosure reporting program for
shipments of HAZMAT by air and submitted it to industry for comment. FAA
received industry’s comments in June 2004, and the draft advisory circular is
currently being circulated within FAA for final coordination.

Currently, air carriers are required to report HAZMAT incidents (e.g., spills and
leaks) to FAA. FAA’s investigation of incidents may result in civil penalties
against the reporting air carrier for violations of HAZMAT regulations. This
process has resulted in sometimes strained relationships between the air carriers
and FAA. For example, a major all-cargo air carrier has stated that it is extremely
frustrated in trying to work with FAA in resolving HAZMAT issues and that the
lack of a self-disclosure program implies that FAA’s emphasis is on assessing
fines rather than resolving systemic causes of HAZMAT incidents.

By implementing a self-disclosure program, FAA will have the opportunity to
reduce its caseload of enforcement actions. A self-disclosure program would not
absolve air carriers from civil penalties for egregious practices. However, FAA
will be able to (1) collect better data and study the systemic causes of HAZMAT
incidents, (2) foster investigative cooperation with air carriers, and (3) focus its

Findings and Recommendations                                                     22
attention on those shippers with a pattern of not complying with HAZMAT
regulations.

FAA needs to finalize and implement its voluntary disclosure reporting program
for shipment of HAZMAT by air. After implementing the program, FAA needs to
take a systematic approach in effectively managing it, to include disseminating all
useful information to the air carriers, HAZMAT shippers, and DOT’s Operating
Administrations with HAZMAT oversight and enforcement responsibilities.


     Implementing a System-Wide Approach for
     “Putting on Notice” Those Passengers Who
            Violate HAZMAT Regulations
Inspecting HAZMAT shipments and enforcing HAZMAT regulations are
inherently safety matters. Prior to September 11, 2001, air carriers were
responsible for the screening of passengers and their checked and carry-on
baggage, including screening for explosive, incendiary, and deadly or dangerous
weapons. The screening of passengers and their checked and carry-on baggage
was conducted almost entirely by third-party screening companies under contract
with the air carriers. FAA was responsible for overseeing the air carriers
compliance with checked and carry-on baggage screening requirements. While all
carry-on baggage was required to be screened, only a very small percentage of
checked baggage required screening.

After September 11th, the responsibility for screening passengers and their checked
and carry-on baggage transferred from the air carriers to TSA. With this transfer,
FAA no longer has jurisdiction for overseeing the screening of passengers and
their checked and carry-on baggage. Today, for FAA to effectively oversee the
shipment of all HAZMAT by air, FAA must work directly with TSA at the
Nation’s airports.


AGREED UPON ROLES AND RESPONSIBILITES BETWEEN FAA
AND TSA NEED BETTER DEFINITION
FAA has an Agreement with TSA addressing HAZMAT, among other issues. The
Agreement delineates basic responsibilities between the two agencies for
screening passengers’ carry-on and checked baggage for prohibited items,
including HAZMAT. However, some of the provisions in the Agreement have not
been fully implemented to prevent passengers from “offering for air




Findings and Recommendations                                                    23
transportation” unauthorized HAZMAT items in their checked and carry-on
baggage.

• HAZMAT at passenger security checkpoints. The Agreement states that
  TSA and FAA agree to establish procedures for a referral process when TSA
  finds passengers with any prohibited HAZMAT items in their carry-on
  baggage. Such items could include fireworks, safety and road flares, tear gas,
  pepper spray, flammable gas torches, flammable aerosols, household bleach,
  and hydrogen peroxide. However, system-wide referral procedures have not
  been developed, and any referral procedures that do exist were developed at
  the local level. Without a standardized, uniform referral approach, FAA has no
  way of “putting on notice” those passengers who have violated HAZMAT
  regulations or identifying those passengers that are repeatedly violating the
  regulations.

   For example, our visit to Atlanta’s Hartsfield-Jackson International Airport
   found that TSA was not keeping a record of violations of HAZMAT
   regulations when HAZMAT items where found during the screening of
   passengers’ carry-on baggage at the TSA passenger security screening
   checkpoints. Records should include information such as date of violation,
   passenger name, flight number and air carrier, and type of HAZMAT item
   abandoned by the passenger. TSA was also not notifying FAA of any
   violations of HAZMAT regulations found during the screening of passengers’
   carry-on baggage.

• HAZMAT discovered in checked baggage. The Agreement between TSA
  and FAA states that when TSA discovers HAZMAT during the security search
  of passengers’ checked baggage, TSA will notify the air carrier that had tagged
  and accepted the baggage. In turn, air carriers are required by HAZMAT
  regulations to notify FAA of the HAZMAT discrepancy. TSA established a
  procedure: its screeners would record in a logbook the type of HAZMAT
  discovered, passengers’ names, baggage tag information, and the airline
  responsible for handling the baggage. The HAZMAT items are to be
  recovered and secured by the air carriers. The air carriers are required to sign
  the logbook indicating that they had accepted the HAZMAT items.

   However, our observations with FAA inspectors of TSA and air carrier
   procedures disclosed that some air carrier personnel were not aware that they
   were required to report the HAZMAT incidents to FAA. For example, a
   representative of a major air carrier at Las Vegas’ McCarran International
   Airport was signing for and accepting HAZMAT items from TSA. The air
   carrier representative was not aware of the requirement to report HAZMAT
   incidents to FAA. The FAA inspector told the air carrier of the reporting


Findings and Recommendations                                                   24
       requirement and the procedures to report to FAA the HAZMAT incidents
       involving passengers’ checked baggage.


PUBLIC AWARENESS CAMPAIGNS ARE NOT ENOUGH TO
PREVENT HAZMAT FROM BEING CARRIED ON BOARD
AIRCRAFT
In addition to the Agreement with TSA, FAA has implemented other activities to
increase the traveling public’s awareness of hazardous materials that are
prohibited for transport by air. These efforts include:

• Kiosks at airports nationwide that display examples of HAZMAT items
  prohibited in carry-on and checked baggage.

• Signs at the airline ticket check-in counters and boarding gates notifying
  passengers about the HAZMAT items prohibited on board aircraft.

• Brochures and other literature that are available at a variety of locations, such
  as airports and travel agencies, listing those items prohibited for shipment by
  air. FAA’s HAZMAT internet site13 provides an abundance of information
  about HAZMAT safety during air travel. This includes information about laws
  prohibiting passengers from carrying HAZMAT in carry-on and checked
  baggage and about enforcement actions available to FAA.

• Other education and outreach programs with industry and the general public.

Despite these efforts and without system-wide procedures for notifying passengers
that they had unauthorized HAZMAT in their carry-on or checked baggage, there
continues to be a significant amount of prohibited HAZMAT in passengers’
carry-on and checked baggage at airports nationwide. For example, during the last
6 weeks of 2003, TSA was responsible for the emergency removal of
8,312 pounds of HAZMAT from 18 airports. TSA hired a contractor to manage
the disposal of abandoned prohibited items (e.g., knives) and HAZMAT at airport
checkpoints.14




13
     http://ash.faa.gov
14
     On October 8, 2003, TSA announced that they had awarded a nationwide contract to manage the disposal of
     abandoned property and hazardous materials at airport checkpoints. Hazardous materials are to be disposed of in a
     manner compliant with environmental regulations.


Findings and Recommendations                                                                                      25
DEVELOPING AN EXPEDIENT MEANS FOR INVESTIGATING AND
PROCESSING VIOLATIONS OF HAZMAT REGULATIONS
INVOLVING PASSENGERS’ CHECKED AND CARRY-ON
BAGGAGE
HAZMAT regulations require that all incidents, no matter how small, involving
the improper transport of HAZMAT via aircraft be investigated. This includes the
discovery of HAZMAT by TSA in passengers’ carry-on and checked baggage.
Processing these incidents will hinder the effectiveness of FAA’s HAZMAT
mission without the development of efficient and expedient means of investigating
and processing the reported incidents. To its credit, FAA developed a
computer-based system whereby TSA could transmit a report of HAZMAT
discrepancies at checkpoints. TSA decided to develop its own system. As a
result, no procedure is in place for notifying FAA of HAZMAT discrepancies that
occur at passenger checkpoints. FAA is working with TSA to define an electronic
interface between the system TSA is developing and FAA’s system.

To further strengthen its oversight of unauthorized HAZMAT carried in
passengers’ carry-on and checked baggage, FAA developed an operating system
for use by TSA and the air carriers to record and process violations of HAZMAT
regulations discovered during security screening. The system would be used to
track recurring violations by type of violation and number of violations committed
by individual passengers, regardless of where the violations took place or which
air carrier was involved. The system has not been implemented because TSA
decided to develop its own system, and the air carriers are reluctant to use the
system due to passenger privacy concerns.

FAA should work with TSA to revise the Agreement to better define the roles and
responsibilities between the two Administrations for preventing unauthorized
HAZMAT from being carried on board passenger aircraft. This includes TSA
notifying FAA of HAZMAT incidents associated with passengers’ carry-on
baggage. This cannot be overstated as the quantity of HAZMAT items found in
passengers’ carry-on and checked baggage has been vast since TSA began
screening all passengers’ carry-on and checked baggage.



RECOMMENDATIONS
To enhance FAA’s Hazardous Materials Program, we recommend that FAA:

1. Institute guidelines and timeframes for conducting HAZMAT investigations,
   conducting legal reviews, and issuing Notices of Proposed Civil Penalties

Findings and Recommendations                                                   26
   through the coordinated efforts of the Hazardous Materials Division and Office
   of the Chief Counsel.

2. Implement a nationwide plan to distribute equitably the number of HAZMAT
   enforcement cases per attorney.

3. Develop and implement alternate means of administering HAZMAT
   enforcement cases, such as the ticketing system used by RSPA.

4. Finalize and implement the FAA voluntary disclosure reporting program.
   FAA needs to take a systematic approach in effectively managing the program,
   to include disseminating all useful information to the air carriers, HAZMAT
   shippers, and DOT’s Operating Administrations with HAZMAT oversight and
   enforcement responsibilities.

5. Implement a pilot project with TSA and one or more air carriers to determine
   the effectiveness and cost of an automated operating system to record and
   process violations of HAZMAT regulations discovered during the screening of
   passengers’ carry-on and checked baggage. In the interim, collaborate with
   TSA to implement system-wide procedures for notifying FAA of HAZMAT
   incidents associated with passengers’ carry-on baggage.

6. Issue an advisory circular notifying all air carriers that they must report to FAA
   all unauthorized HAZMAT found in passengers’ checked baggage and take
   enforcement actions against those air carriers not complying with the reporting
   requirements.

To enhance DOT’s internal HAZMAT regulatory coordination, we recommend
DOT’s Office of Safety, Energy and Environment:

7. Establish and implement a process for resolving HAZMAT regulatory disputes
   between FAA and RSPA to ensure that the unique safety requirements for
   shipments of HAZMAT by air are being effectively addressed.

New Recommendation Added to Final Report: To strengthen its assessment of
air carriers’ compliance with HAZMAT regulations, we recommend FAA:

8. Develop and implement a covert testing program to evaluate air carriers’
   compliance with the required acceptance procedures for HAZMAT shipments
   by air. Preferably, a joint program would be established in which FAA works
   with TSA.




Findings and Recommendations                                                      27
MANAGEMENT COMMENTS AND OFFICE OF
INSPECTOR GENERAL RESPONSE
In responding to a draft of this report, FAA and the Assistant Secretary for
Transportation Policy agreed in general with our recommendations and stated that
work is underway to address all outstanding issues identified in the draft report.

FAA and the Assistant Secretary provided specific comments on the
recommendations, detailing the corrective actions planned to close out them out.
For Recommendations 2 through 6, we consider FAA planned actions responsive
to the recommendations. However, for Recommendation 1, FAA comments were
not fully responsive, and we are requesting some additional information. For
Recommendation 7, we consider the Assistant Secretary’s comments to be
positive and constructive, and the actions planned for the recommendation are
reasonable.

FAA’s and the Assistant Secretary’s comments to Recommendations 2 through 7
are summarized below.

• Recommendation 2. Concur. FAA’s Office of the Chief Counsel agreed to
  implement a plan to more evenly distribute the HAZMAT enforcement cases
  among the FAA legal offices by December 31, 2004. Also, to more evenly
  distribute the HAZMAT enforcement case load in FAA’s regional offices,
  FAA’s Office of Security and Hazardous Materials agreed to initiate a policy
  by December 31, 2004, to distribute certain legal enforcement cases from the
  region where they are reported and initially investigated to the region where
  the shipper is located.

• Recommendation 3. Partially Concur. FAA agreed to develop a
  streamlined enforcement process for certain HAZMAT violation cases
  involving unauthorized HAZMAT in passengers’ checked and carry-on
  baggage. The HAZMAT division manager, not the attorney, would issue
  notices of violations, providing the violator with the option of having the
  penalty reduced by 50 percent if paid within 30 days. FAA would also
  consider the applicability of such an approach for other types of HAZMAT
  violations that are factually straightforward and involve relatively low-dollar
  penalties. This will require rulemaking, and FAA expects to have a Notice of
  Proposed Rulemaking in agency coordination by September 30, 2005. We
  consider FAA’s alternative course of action responsive to the recommendation.

• Recommendation 4. Concur. FAA agreed to finalize and publish its
  advisory circular on the HAZMAT voluntary disclosure reporting program by
  December 31, 2004. Under the voluntary disclosure reporting program, air


Findings and Recommendations                                                   28
   carriers would be allowed to self-report to FAA instances of noncompliance
   with HAZMAT regulations. FAA will issue a letter of correction, instead of a
   civil penalty, for instances of noncompliance that are voluntarily disclosed.

   Recommendation 5. Concur. Under the existing Agreement, FAA and TSA
   would establish procedures for a referral process when TSA finds a passenger
   with prohibited HAZMAT in his or her carry-on baggage. According to FAA,
   TSA has not agreed to procedures to make such referrals routinely. As part of
   an Agency-wide initiative to revise the existing Agreement with TSA, FAA is
   seeking direct access to the HAZMAT information contained in TSA’s
   Dangerous Goods module of its Performance and Reports Information System.
   The module identifies passengers who have abandoned the most observable
   and dangerous HAZMAT at screening checkpoints. FAA will raise the
   possibility of a pilot project to gain access to the relevant data from the
   Performance and Reports Information System as part of the initiative to revise
   the Agreement. FAA expects to complete discussions with TSA concerning
   access to its Dangerous Goods module by December 31, 2004.

• Recommendation 6. Concur. FAA will issue an advisory circular clarifying
  the air carriers’ HAZMAT reporting requirements by May 31, 2006.

   FAA stated that it was not necessary, at this time, to issue an advisory circular
   notifying air carriers of their HAZMAT reporting requirements. According to
   FAA, over 3,000 HAZMAT assessments of air carrier airport stations are
   conducted annually, with only a few isolated cases of unauthorized HAZMAT
   found in passengers’ checked baggage and the air carrier not reporting it to
   FAA, as required. These cases are still under investigation. This is compared
   to over 1,000 reports of unauthorized HAZMAT in checked baggage that FAA
   receives from air carriers each month.

   In their HAZMAT reports to FAA, air carriers advise that they do not have, or
   cannot provide, the passengers’ addresses, which limits FAA’s investigation
   efforts. According to FAA, individual air carriers and the Air Transport
   Association say they cannot provide the address of passengers because of
   privacy concerns.

   To address the privacy concerns, FAA is coordinating with RSPA to amend the
   Hazardous Materials Regulations to require disclosure of the addresses of
   passengers who violate the Regulations. FAA anticipates that RPSA will issue
   its Final Rule in February 2006. Upon completion of the rulemaking, FAA
   will issue an advisory circular clarifying the air carriers’ HAZMAT report
   requirements by May 31, 2006.




Findings and Recommendations                                                     29
• Recommendation 7. Concur. The Assistant Secretary for Transportation
  Policy agreed to develop a process for resolving regulatory disagreements
  between FAA and RSPA and for any future disagreements between Operating
  Administrations, with a formalized process in place by February 2005.

   Also, RSPA’s Deputy Administrator reviewed the draft report and told us that
   he believes that RSPA and FAA are making progress towards building a more
   cooperative and collaborative relationship and that regulatory differences are
   being resolved more effectively and expeditiously.

FAA’s comments and the Office of Inspector General responses to
Recommendation 1 are summarized below.

   Recommendation 1. Concur. FAA agreed to implement by December 31,
   2004 new timeframe goals for (1) completing HAZMAT violation
   investigations, and (2) initiating and completing HAZMAT enforcement cases.
   However, FAA did not believe that guidelines were necessary for conducting
   HAZMAT investigations, conducting legal reviews, and issuing Notices of
   Proposed Civil Penalties because guidelines already exist under current FAA
   enforcement policy.

   We believe that guidelines are necessary and should remain as part of
   Recommendation 1 because existing enforcement policy does not include
   specific guidelines for when HAZMAT inspectors and attorneys would
   coordinate or collaborate during investigations and legal reviews and when
   issuing penalties.

   During our review of the HAZMAT enforcement process involving civil
   penalties, we found that that inspectors and attorneys conducted their work
   independently and without any coordination. We also found that attorneys
   started their reviews of the HAZMAT cases by reading, for the first time, the
   inspector’s report and summary conclusions.             If an attorney felt an
   investigation lacked sufficient data or the attorney just needed more
   information, the attorney would then contact the investigating inspector. This
   might not take place until more than a year after the incident had taken place.

   We also found that enforcement cases that take an average of more than 1 year
   to process raise questions about the effectiveness and efficiency of the
   investigation and legal review process. In many cases, the settlement penalties
   had little, if any, deterrent value against the violators’ noncompliance with
   HAZMAT regulations because the penalties assessed were too far removed, in
   both time and dollar amount, from the incident that initiated the enforcement
   action.



Findings and Recommendations                                                   30
   We concluded that simple coordination between inspectors and attorneys at the
   start of an investigation can save both parties time in developing and
   processing a case where civil penalties will be recommended. Inspectors
   should state their reasons for developing a case, and attorneys should provide
   advice about the projected strength of a case and what the inspectors need to
   provide to help ensure a strong case is presented. Without up-front
   communication between inspectors and attorneys, neither group can benefit
   from the other’s knowledge and skills.

   Therefore, to better coordinate HAZMAT operating objectives, FAA’s
   HAZMAT Division and Office of the Chief Counsel must develop and
   implement effective guidelines and timeframes for coordinating their resources
   when conducting investigations, conducting legal reviews, and issuing
   penalties. A clear policy statement and guidance on coordination between
   inspectors and attorneys at the start of an investigation can save both parties
   time in developing and processing a case where civil penalties will be
   recommended.

In its other comments to the draft report, FAA requested that the finding regarding
the reduction in civil penalties by the attorneys from the amount recommended by
the inspectors be placed in context. FAA stated that there are circumstances that
may warrant mitigation of the penalty, such as the violator taking corrective
action. FAA also stated that it is required by statute to conduct an evaluation of
the HAZMAT violator’s ability to pay. According to FAA, this evaluation
frequently results in a reduction of the recommended penalty. We have revised
the final report to reflect this.

We are also requesting comments from FAA on the need for covert testing of air
carriers’ compliance with regulations for the acceptance of HAZMAT shipments
by air. FAA’s Office of the Chief Counsel has advised HAZMAT Program
officials that they cannot conduct covert tests of air carriers’ HAZMAT
acceptance procedures without an exemption to regulatory requirements contained
in Title 49 Code of Federal Regulations. According to FAA’s Office of the Chief
Counsel, it is against regulations to place a hazardous materials label on a package
that does not contain hazardous material. In addition, TSA requires that air
carriers accept packages only from shippers registered in its Known Shipper
Program. In our opinion, FAA needs to have a covert testing program, preferably
a joint program in which FAA works with TSA.




Findings and Recommendations                                                     31
EXHIBIT. FAA’S AND RSPA’S AIR-SPECIFIC
HAZMAT PRIORITIES FOR FISCAL YEAR 2004
In November 2003, FAA’s Assistant Administrator, Office of Security and
Hazardous Materials, presented FAA’s Air-Specific HAZMAT Strategic Plan
Priorities for fiscal year 2004 to RSPA’s Associate Administrator, Office of
Hazardous Materials Safety. The five issues identified by FAA are listed below,
followed by RSPA’s four major areas of concern.


FAA’S KEY ISSUES
   •   Non-spillable electric storage batteries. This is FAA’s first priority. FAA
       and RSPA need to reexamine labeling and hazardous communication
       requirements. Laptop computers, electric lawn mowers, electric hand
       trucks, and uninterruptible power sources have caused fire and smoke
       incidents during air transportation.

   •   Lithium batteries. FAA has concerns that industry’s “on-time delivery”
       expectations will continue to fuel the shipment of lithium batteries from
       the battery manufacturer in one location to the device assembly point in
       another.    The batteries are packed in bulk corrugated cardboard
       containers, stacked on pallets, and shipped in cargo holds of passenger
       and all-cargo aircraft. Several lithium battery fires have occurred in air
       cargo over the last 5 years.

   •   Air-specific HAZMAT packaging standards. FAA needs to work with
       RSPA in examining existing air-mode packaging standards and to
       consider establishing a testing protocol for air-specific packaging.

   •   Flammable aerosols in luggage and the apparent effects of static
       electricity. There are reports of unexplained suitcase “explosions” on
       airport conveyor belts, where a common factor has been flammable vapor
       build-up within the suitcase. Static electricity is suspected as a
       contributing factor in these cases. Analysis of available data is to be
       performed by a leading university. Consideration must be given to
       exempting some consumer products that are the source materials in the
       “explosions.”

   •   Diagnostic Specimens. This is an ongoing area of discussion between
       FAA and RSPA. FAA is requesting that infectious substances and

TExhibit. FAA’s and RSPA’s Air-Specific HAZMAT Priorities for Fiscal
Year 2004T                                                        32
      diagnostic specimens be included in the fiscal year 2004 air-specific
      HAZMAT strategic plan.


RSPA’S KEY ISSUES
  •   Revision of the requirements for carriage by aircraft. RSPA has a
      proposal that would result in the rewrite of Part 175 (Aircraft Operator
      Responsibilities) to Title 49, Code of Federal Regulations. This has been
      under discussion since 1996 and needs to be completed.

  •   Increasing accessibility of air travel for individuals dependent on medical
      oxygen. The Secretary of Transportation in September 2003 asked that
      RSPA and FAA give prompt consideration to the accessibility of air travel
      for individuals dependent on medical oxygen.

  •   Harmonization of the HAZMAT regulations with those of the
      international community. RSPA plans a Notice of Proposed Rule Making
      and final rule that would harmonize domestic regulations with those of the
      international community. RSPA needs FAA’s assistance on this.

  •   Oxygen cylinders and oxygen generators aboard aircraft. A proposed
      rulemaking would require that oxygen cylinders and oxygen generators be
      in ruggidized overpacks when transported aboard aircraft. RSPA will
      need FAA’s assistance in processing comments from the aviation industry
      and disabled community.




TExhibit. FAA’s and RSPA’s Air-Specific HAZMAT Priorities for Fiscal
Year 2004T                                                        33
           APPENDIX. MANAGEMENT COMMENTS


                                                       Memorandum

Subject:   INFORMATION: New Approaches Needed in                 Date:

           Managing FAA's Hazardous Materials
           Program, Federal Aviation Administration
  From:    Assistant Administrator for Financial Services     Reply to
                                                              Attn. of:
             and Chief Financial Officer

    To:    Principal Assistant Inspector General for
              Auditing and Evaluation



           Thank you for your August 20 Memorandum and the attached draft audit report
           of the Federal Aviation Administration’s Hazardous Materials Program. I
           appreciate the additional time you have allowed for us to provide written
           comments concerning the report and the recommendations.

           The draft report has been reviewed by the Chief Counsel and the Assistant
           Administrator for Security and Hazardous Materials. A copy of our comments is
           attached. We have also provided an electronic word version of the comments for
           inclusion in the final report as you requested.

           Should you have any questions or need additional information, please contact
           Anthony Williams on 267-9000.




           Ramesh K. Punwani

           Attachment




           Appendix. Management Comments                                                    34
  Federal Aviation Administration’s (FAA) Response to the Office of Inspector
    General’s Draft Report on New Approaches Needed in Managing FAA’s
                   Hazardous Materials (HAZMAT) Program


OIG Recommendation 1: Institute guidelines and timeframes for conducting
HAZMAT investigations, conducting legal reviews, and issuing Notices of Proposed
Civil Penalties through the coordinated efforts of the Hazardous Materials Division
and Office of the Chief Counsel (AGC).

FAA response: Concur. The Assistant Administrator for Security and Hazardous
Materials, ASH-1 will implement new timeframe goals for completion of legal
enforcement HAZMAT investigations. The Chief Counsel is implementing new
timeframe goals for initiating and completing HAZMAT enforcement cases. We
expect that these goals will be adopted by December 31.

We understand that the guidelines referenced in this recommendation pertain to
recommendation 3. We will adopt guidelines as part of our response to that
recommendation. We recommend, therefore, that the reference to acceptable
guidelines in this recommendation be deleted.

OIG Recommendation 2: Implement a nationwide plan to distribute equitably the
number of HAZMAT cases per attorney.

FAA response: Concur. AGC is implementing a plan to more evenly distribute the
HAZMAT cases among the FAA legal offices. This will be accomplished by
December 31. ASH is implementing a plan to have appropriate cases originated in
the region of the shipper; this will have the effect of more evenly distributing the case
load among the regional offices. The Office of Security and Hazardous Materials
expects to initiate a policy to distribute certain legal enforcement cases from the
region where they are reported and initially investigated to the region where the
shipper is located by December 31.

OIG Recommendation 3: Develop and implement alternate means of administering
HAZMAT enforcement cases, such as the ticketing system used by Research and
Special Programs Administration (RSPA).

FAA response: Partially Concur. The FAA has had successful experience with a
streamlined enforcement process for certain cases involving passengers who carried
weapons in their baggage. See 14 CFR § 13.29. Under this procedure the security
division manager, not the attorney, issued notices of violation, which provided
violators with the option of having his or her penalty reduced by 50 percent if the
violator paid the penalty within 30 days. We expect to propose a similar alternative
system for certain passenger HAZMAT violation cases. In addition, we will consider
whether such an approach can also be used in other types of violations that are
factually straightforward and involve relatively low-dollar penalties. Implementation


Appendix. Management Comments                                                         35
                                                                                       2


of an alternative process will require rulemaking. We expect to have a draft Notice
of Proposed Rulemaking in agency coordination by September 30, 2005.

OIG Recommendation 4: Finalize and implement the voluntary disclosure reporting
program. FAA needs to take a systematic approach in effectively managing the
program, to include disseminating all useful information to the air carriers, HAZMAT
shippers, and Department of Transportation’s Operating Administrations with
HAZMAT oversight and enforcement responsibilities.

FAA response: Concur. The FAA has drafted a voluntary disclosure advisory
circular that would apply to certain air operator requirements. The draft advisory
circular is now being coordinated with other concerned lines of business within FAA,
such as the Chief Counsel’s Office and the Flight Standards Service. We expect to
publish this advisory circular by December 31.

OIG Recommendation 5: Implement a pilot project with the Transportation Security
Agency (TSA) and one or more air carriers to determine the effectiveness and cost
of having an automated operating system to record and process violations of the
HAZMAT regulations discovered during the screening of passengers’ carry-on and
checked baggage. In the interim, FAA should collaborate with the TSA to
implement system-wide procedures for notifying FAA of HAZMAT incidents
associated with passengers’ carry-on baggage.

FAA response: Concur. Airport security screeners are not conducting a search for
hazardous materials. They are conducting a search for weapons and prohibited
items. The FAA does not support any initiative that would divert the attention of
airport security screeners from their efforts to locate and remove weapons and other
prohibited items.

The TSA issued an interpretative rule [68 FR 9902] that clarifies the types of
property considered to be weapons, explosives and incendiaries. The TSA
interpretative rule also advised passengers concerning the types of items prohibited
by the Hazardous Materials Regulations (HMR). As part of their security duties,
screeners do notice prohibited hazardous materials in plain view. Under an
interpretation issued by the Department of Transportation, passengers who present
prohibited hazardous materials at the screening checkpoint are in violation of the
HMR. [68 FR 9735].

The FAA and the TSA currently have a Memorandum of Agreement (MOA) that
includes a Hazardous Materials Annex that calls for the agencies to establish
procedures for a referral process when the TSA finds a passenger with prohibited
HAZMAT. While the FAA has received some referrals from the TSA, the TSA has
not yet agreed to procedures to make such referrals routinely. FAA’s Office of
Security and Hazardous Materials is participating in an agency-wide initiative to
revise the existing MOA with the Department of Homeland Security (DHS) and TSA.
As part of this initiative, the FAA is seeking direct access to the hazardous materials



Appendix. Management Comments                                                        36
                                                                                          3


information contained in the Dangerous Goods module of TSA’s Performance and
Reports Information System (PARIS). PARIS is the database that records the TSA’s
inspection and investigation findings. This Dangerous Goods module identifies
passengers who have abandoned the most observable and dangerous hazardous
materials at the security checkpoint. The FAA will raise the possibility of a pilot
project to gain access to the relevant PARIS data as part of the initiative to revise
the MOA with TSA/DHS. The Office of Security and Hazardous Materials expects to
complete discussions with TSA/DHS concerning automated access to HAZMAT
information about passenger’s carry-on baggage by December 31.

OIG Recommendation 6: Issue an advisory circular notifying all air carriers that
they must report to FAA all unauthorized HAZMAT found in passengers’ checked
baggage and take enforcement actions against those air carriers not complying
with the reporting requirements.

FAA response: Concur. Concerning suspected unauthorized hazardous materials
noticed by security screeners in checked baggage, these screeners bring such items
to the attention of the respective air carrier for resolution. Air carriers, in turn, report
these items to the FAA. Currently, the FAA is receiving over 1,000 such reports a
month. In response to these reports, FAA has taken two actions. First, we have
developed a database entry screen for field agents to enter and prioritize the details
of these reports. Instances involving more serious HAZMAT are individually
investigated while an automated outreach, educational notice is generated to the
passengers responsible for the instances involving less serious HAZMAT.
Approximately 2,000 reports have been processed in this manner. However in many
cases, air carriers advise that they do not have, or cannot provide, the passenger’s
address. With tickets purchased over the internet, carriers report they do not always
know their passenger’s address. In addition, individual air carriers and the Air
Transport Association have reported that they cannot always report the passenger’s
address to the FAA because of privacy concerns. Therefore, the FAA is
coordinating with RSPA to amend the HMR to add a requirement for air carriers to
provide the address of the passenger responsible for the incident, if they know it or
can reasonably obtain it.

Additionally, the FAA has taken several actions to remind air carriers that they must
comply with the requirements to report violations mandated by 49 CFR 175.31. The
FAA conducts over 3,000 hazardous materials assessments of air carrier airport
stations annually. As part of the assessment, FAA agents are required to ask airline
representatives if they are aware of the HAZMAT reporting requirements and enter
their response into the computerized inspection results. As indicated above, since
the advent of 100% checked baggage security screening, FAA is currently receiving
over 1,000 reports of unauthorized HAZMAT in checked luggage from air carriers
each month. TSA’s procedures call for security screeners who suspect
unauthorized hazardous materials in checked baggage to notify the appropriate air
carrier and to record the event in a log. FAA field agents check these TSA logs at
airports and compare it to the reports received from air carriers. Occasionally, the



Appendix. Management Comments                                                            37
                                                                                         4


logs record an incident that was not reported to the FAA. In many of these cases,
TSA screeners are recording suspected HAZMAT that is actually allowed under 49
CFR 175.10, and therefore no air carrier report to FAA is necessary. In a few cases,
the logs list unauthorized HAZMAT, not reported to FAA as required. Recently, in
several isolated cases, FAA sent Letters of Investigation to air carriers that
apparently did not report unauthorized HAZMAT that were recorded by security
screeners in various TSA logs. Air carriers have maintained that they are not always
notified by screeners, as the TSA procedures call for, and that they are not allowed
to review the logs themselves. Several of these cases are still under investigation
by the FAA. The FAA will take enforcement action in accordance with FAA Order
2150.3A if these investigations find that reporting violations were committed.

Upon completion of the on-going discussions with TSA concerning the MOA and
RSPA’s rulemaking efforts, FAA will draft and issue an Advisory Circular clarifying
the air carrier’s HAZMAT reporting requirements. RSPA has notified the FAA that
its timeline to complete a final rule revising these discrepancy reporting requirements
and other requirements for the transport of hazardous materials by aircraft is
February 2006. Given this timeline, the Office of Security and Hazardous Materials
expects to issue an Advisory Circular by May 31, 2006.

OIG Recommendation 7: DOT’s Office of Safety, Energy and Environment
establish and implement a process for resolving HAZMAT regulatory disputes
between the FAA and RSPA to ensure that the unique safety requirements for
shipments of HAZMAT by air are being effectively addressed.

(Response provided by OST)

Other comments on the report:

The draft report notes the extent of the reduction in civil penalties from the amount
recommended by the inspectors and the attorneys. While we do not dispute the
accuracy of the OIG’s findings in this regard, we believe the findings should be
placed in context, and request that the final report reflect this context.

Penalties recommended by the inspectors are made before the attorney evaluates
the sufficiency of the evidence that supports an alleged violation and the inspector’s
application of sanction guidance. The amount recommended by the inspector or
proposed by the attorney both occur before an informal conference is held. It is at
the informal conference that the FAA often becomes aware of circumstances that
constitute a defense to an alleged violation or that warrant mitigation of the penalty
(e.g., corrective action). Likewise, it is often after the penalty has been proposed
that the agency is able, after receiving information from the alleged violator, to
conduct the statutorily-mandated evaluation of the violator’s ability to pay, which
frequently results in a reduction from the recommended penalty.




Appendix. Management Comments                                                           38
           U.S. Department of
           Transportation
                                                     Memorandum
           Office of the Secretary
           of Transportation

           _____________________________________________________________

                                                                    Date:   September 21, 2004

Subject:   Action: Response to Draft Report on New
           Approaches Needed in Managing FAA’s
           Hazardous Materials Program

 From:     Emil H. Frankel
           Assistant Secretary for Transportation Policy

   To:     Alexis M. Stefani
           Principal Assistant Inspector General
              for Auditing and Evaluation
           _____________________________________________________________

           Within the office of the Assistant Secretary for Policy, the Office of Safety, Energy and
           Environment (OSEE) is the focal point for intermodal DOT hazardous materials (hazmat) issues.
            This office is working to foster a department-wide approach to implementing hazardous
           materials programs. One office responsibility is to facilitate the resolution of disagreements
           among operating administrations on hazmat issues where they have been unable to reach a
           mutually agreed on solution. OSEE was already aware of the differences between FAA and
           RSPA cited in the OIG draft report, and has initiated a process to resolve outstanding hazmat
           disputes and reach agreement on appropriate actions necessary to fully and appropriately protect
           the public and the transportation infrastructure.

           RECOMMENDATION AND RESPONSE

           Recommendation 7: Establish and implement a process for resolving HAZMAT regulatory
           disputes between FAA and RSPA to ensure that the unique safety requirements for shipments of
           HAZMAT by air are being effectively addressed.

           Response: Concur. OST Policy, FAA, and RSPA, are developing a plan of action that will
           identify the steps needed to resolve the areas of concern identified in the OIG draft report. This
           process will be used as a model to address any future disagreements between the operating
           administrations. We anticipate having this process formalized by February 2005, completing this
           recommendation.




           Appendix. Management Comments                                                               39
